<html>
<title> - REVIEW OF THE WELFARE OF ANIMALS IN AGRICULTURE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
            REVIEW OF THE WELFARE OF ANIMALS IN AGRICULTURE 

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON LIVESTOCK, DAIRY, AND POULTRY

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 8, 2007

                               __________

                           Serial No. 110-18


          Printed for the use of the Committee on Agriculture
                       www.agriculture.house.gov




                     U.S. GOVERNMENT PRINTING OFFICE

39-809 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001




























                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman

TIM HOLDEN, Pennsylvania             BOB GOODLATTE, Virginia
    Vice Chairman                        Ranking Minority Member
MIKE McINTYRE, North Carolina        TERRY EVERETT, Alabama
BOB ETHERIDGE, North Carolina        FRANK D. LUCAS, Oklahoma
LEONARD L. BOSWELL, Iowa             JERRY MORAN, Kansas
JOE BACA, California                 ROBIN HAYES, North Carolina
DENNIS A. CARDOZA, California        TIMOTHY V. JOHNSON, Illinois
DAVID SCOTT, Georgia                 SAM GRAVES, Missouri
JIM MARSHALL, Georgia                JO BONNER, Alabama
STEPHANIE HERSETH SANDLIN, South     MIKE ROGERS, Alabama
Dakota                               STEVE KING, Iowa
HENRY CUELLAR, Texas                 MARILYN N. MUSGRAVE, Colorado
JIM COSTA, California                RANDY NEUGEBAUER, Texas
JOHN T. SALAZAR, Colorado            CHARLES W. BOUSTANY, Jr., 
BRAD ELLSWORTH, Indiana              Louisiana
NANCY E. BOYDA, Kansas               JOHN R. "Randy" KUHL, Jr., New 
ZACHARY T. SPACE, Ohio               York
TIMOTHY J. WALZ, Minnesota           VIRGINIA FOXX, North Carolina
KIRSTEN E. GILLIBRAND, New York      K. MICHAEL CONAWAY, Texas
STEVE KAGEN, Wisconsin               JEFF FORTENBERRY, Nebraska
EARL POMEROY, North Dakota           JEAN SCHMIDT, Ohio
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
JOHN BARROW, Georgia                 KEVIN McCARTHY, California
NICK LAMPSON, Texas                  TIM WALBERG, Michigan
JOE DONNELLY, Indiana
TIM MAHONEY, Florida

                           Professional Staff

                     Robert L. Larew, Chief of Staff

                     Andrew W. Baker, Chief Counsel

            William E. O'Conner, Jr., Minority Staff Director

        .........................................................

                               __________

             Subcommittee on Livestock, Dairy, and Poultry

                   LEONARD L. BOSWELL, Iowa, Chairman

KIRSTEN E. GILLIBRAND, New York      ROBIN HAYES, North Carolina
STEVE KAGEN, Wisconsin                   Ranking Minority Member
TIM HOLDEN, Pennsylvania             MIKE ROGERS, Alabama
JOE BACA, California                 STEVE KING, Iowa
DENNIS A. CARDOZA, California        VIRGINIA FOXX, North Carolina
NICK LAMPSON, Texas                  K. MICHAEL CONAWAY, Texas
JOE DONNELLY, Indiana                JEAN SCHMIDT, Ohio
JIM COSTA, California                ADRIAN SMITH, Nebraska
TIM MAHONEY, Florida                 TIM WALBERG, Michigan

              Chandler Goule, Subcommittee Staff Director

        .........................................................

                                  (ii)



























                            C O N T E N T S

                              ----------                              
                                                                   Page
Boswell, Hon. Leonard, a Representative in Congress from the 
  State of Iowa, opening statment................................     1
    Prepared statement...........................................    52
Hayes, Hon. Robin, a Representative in Congress from the State of 
  North Carolina, opening statement..............................     3
    Prepared statement...........................................    54
Lampson, Hon. Nick, a Representative in Congress from the State 
  of Texas, prepared statement...................................    55
King, Hon. Steve, a Representative in Congress from the State of 
  Iowa, prepared statement.......................................    56
Peterson, Hon. Collin C., a Representative in Congress from the 
  State of Minnesota, opening statement..........................     3
    Prepared statement...........................................    57
Goodlatte, Hon. Bob, a Representative in Congress from the 
  Commonwealth of Virginia, opening statement....................     4
    Prepared statement...........................................    59

                               Witnesses

Stenholm, Hon. Charlie, Olsson, Frank, and Weeda, P.C., 
  Washington, D.C................................................     4
    Prepared statement...........................................    60
Pacelle, Mr. Wayne, President and CEO, The Humane Society of the 
  United States, Washington, D.C.................................    16
    Prepared statement...........................................    64
Golab, Dr. Gail C., PhD, DVM, Associate Director, Animal Welfare 
  Division, American Veterinary Medical Association, Schaumburg, 
  Illinois.......................................................    18
    Prepared statement...........................................    79
Leary, Dr. Steven L., DVM, Assistant Vice Chancellor, Veterinary 
  Affairs, Washington University, on behalf of National 
  Association for Biomedical Research, St. Louis, Missouri.......    20
    Prepared statement...........................................    98
Gregory, Mr. Gene, President, United Egg Producers, Alpharetta, 
  Georgia........................................................    22
    Prepared statement...........................................   108
Gonzalez, Mr. Guillermo, Owner, Sonoma Foie Gras, on behalf of 
  Artisan Farmers Alliance, Sonoma, California...................    23
    Prepared statement...........................................   114
Martosko, Mr. David, Director of Research, Center for Consumer 
  Freedom, Washington, D.C.......................................    25
    Prepared statement...........................................   116
Baur, Mr. Gene, President, Farm Sanctuary, Watkins Glen, New York    37
    Prepared statement...........................................   123
Ramsey, Mr. Paxton, Member, National Cattlemen's Beef 
  Association, Devers, Texas.....................................    39
    Prepared statement...........................................   131
Determan, Ms. Barbara, National Pork Producers Council, Early, 
  Iowa...........................................................    41
    Prepared statement...........................................   136
Lange, Ms. Leslie Vagneur, National Director, American Quarter 
  Horse Association, Greeley, Colorado...........................    43
    Prepared statement...........................................   153
Jordan, Dr. Karen, Owner, Large Animal Veterinary Services, on 
  behalf of National Milk Producers Federation, Siler City, North 
  Carolina.......................................................    45
    Prepared statement...........................................   158

                           Submitted Material

Scott, Mr. Bryan, Executive Vice President, American Veal 
  Association, Antioch, Illinois.................................   161
Golab, Dr. Gail C., PhD, DVM, Associate Director, Animal Welfare 
  Division, American Veterinary Medical Association, Schaumburg, 
  Illinois.......................................................   171
Pacelle, Mr. Wayne, President and CEO, Humane Society of the 
  U.S., Washington, D.C..........................................   175
National Cattlemen's Beef Association............................   180
Riley, Ms. Janet M., Senior Vice President, American Meat 
  Institute, Washington, D.C.....................................   204
Baur, Mr. Gene, President, Farm Sanctuary, Watkins Glen, New York   304
Gregory, Mr. Gene, President, United Egg Producers, Alpharetta, 
  Georgia........................................................   308
American Farm Bureau Federation, Washington, D.C.................   328
Stenholm, Hon. Charlie, Olsson, Frank, Weeda, P.C., Washington, 
  D.C............................................................   333
Jordan, Dr. Karen, DVM, Owner, Large Animal Veterinary Services, 
  on behalf of National Milk Producers Federation, Siler City, 
  North Carolina.................................................   242
Lange, Ms. Leslie Vagneur, National Director, American Quarter 
  Horse Association, Greeley, Colorado [American Quarter Horse 
  Association Official Handbook of Rules and Regulations 
  Contained in Committee Records]................................   391
Answers to submitted questions...................................   432


        HEARING TO REVIEW THE WELFARE OF ANIMALS IN AGRICULTURE

                              ----------                              


                          TUESDAY, MAY 8, 2007

                  House of Representatives,
      Subcommittee on Livestock, Dairy, and Poultry
                                   Committee on Agriculture
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:35 a.m., in 
Room 1300 of the Longworth House Office Building, Hon. Leonard 
Boswell [Chairman of the Subcommittee] presiding.
    Members present: Representatives Boswell, Kagen, Holden, 
Cardoza, Lampson, Costa, Peterson (ex officio), Hayes, King, 
Conaway, Smith, Walberg, Schmidt and Goodlatte (ex officio).
    Staff present: Adam Durand, Chandler Goule, Tyler Jameson, 
Scott Kuschmider, John Riley, Sharon Rusnak, April Slayton, 
Debbie Smith, Kristin Sosanie, Lindsey Correa, John Goldberg, 
Pam Miller, Stephanie Myers, Pete Thomson, and Jamie Weyer.

STATEMENT OF HON. LEONARD BOSWELL, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF IOWA

    Mr. Boswell. We would like to call our meeting to order for 
today, and I would like to thank all of you for being here. I 
give a special thanks to our witnesses for offering their 
insight into the current welfare issues surrounding animal 
agriculture. I look forward to hearing your testimony. I think 
it an opportunity for us to share together and treat each other 
like we would like to be treated and get some things out we 
ought to be talking about.
    I would just say this. Having spent most of my life 
involved in animal agriculture, I understand many of the issues 
firsthand. Looking back over my own history, I have worked with 
a variety of animals from dairy cows to feeder pigs to my 
current cow-calf operation and of course we have always had a 
couple of horses or more on the farm as we do even today. So 
these issues are not showing up on my radar for the first time.
    We will hear from all sides of this issue today with two 
primary questions, maybe more: what is the status of animal 
welfare in American agriculture, and what is the industry 
currently doing to address the concerns of consumers. On the 
first question, as animal agriculture has grown over the past 
50 years, I believe our views on animal welfare have advanced. 
Today we will hear from the industry about the science-based 
self-regulation that the poultry, cattle, hog and many other 
livestock producers have developed to ensure that welfare 
standards remain current and reflect consumer concerns.
    My own experience in agriculture has shown me what happens 
when producers treat their animals poorly. Take, for example, 
dairy cows. If these animals are not properly fed, watered, and 
sheltered, we know what happens to milk production, which makes 
a difference in many cases whether the person can stay in 
business or close their doors. Mistreated animals simply will 
not produce and that is not good for the animal or the farmer.
    On the second question, I believe that the industry has 
already taken steps to address some consumer concerns. With the 
recent boom in demand for organic agriculture, which is going 
on across the country, it is clear that more and more consumers 
are focusing on not only what their food is but where it has 
come from and how it was grown and raised. For example, Burger 
King, Wendy's, Ben and Jerry's and all Wolfgang Puck 
restaurants also now expect their suppliers to meet certain 
animal welfare standards.
    I welcome these changes in industry from cage-free to free 
range chickens. Consumers deserve the choice. If someone is 
willing to pay $3 for a dozen eggs to ensure they come from 
chickens that lived in certain conditions, they should have 
that option. Similarly, if someone decides to use products from 
conventionally raised animals, they should have that choice as 
well as long as the operation is up to Federal, State and 
industry standards.
    These voluntary market-driven changes may or may not be 
enough to fix problems in the industry. However, there may 
still be more than we can do. That is why hearings like this 
are important. We need to consider all options and we must 
ensure that existing laws are being enforced before we move too 
quickly to write new ones. Creating news laws before the new 
ones are properly enforced is not necessarily the solution. Our 
hope is this hearing today will not simply focus on problems 
but solutions as well. We need solutions not only to protect 
animals but ensure safe, plentiful, and affordable food supply.
    Animal agriculture is a multibillion-dollar industry in the 
United States which not only helps feed those of us in this 
room but people around the world. In a sense, we all have a 
vested interest in agriculture, the consumer as well as the 
producer. We all have a vested interest for this reason, and 
that is simply this: Based on per capita, we have the least 
expensive food in the world. That is right. We have the most 
plentiful and we have the safest per capita. The percentage of 
disposable income in the United States, I am told by those who 
study this, is the lowest by quite a bit compared to modern 
places like western Europe all the way to the undeveloped 
countries where this takes all of their income. So we have a 
very good situation in that sense. We have food that is safe, 
plentiful and inexpensive.
    So as we go on to this discussion today, for some it is a 
highly emotional situation but I am glad to have witnesses from 
all sides of the debate so we can have a candid, respectful and 
productive discussion on the welfare of animals in American 
agriculture.
    So at this time, I would like to turn it over to my good 
friend and colleague, Robin Hayes from North Carolina, for any 
opening remarks he would like to make.

  STATEMENT OF HON. ROBIN HAYES, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF NORTH CAROLINA

    Mr. Hayes. Thank you, Mr. Chairman. Chairman Boswell has 
called today's hearing to discuss animal welfare issues 
affecting American's livestock and poultry producers.
    I am pleased that we will be hearing from the former 
Ranking Member of this committee and someone who is a great 
friend and expert of the U.S. producers, Congressman Charlie 
Stenholm. We welcome you hear today and know that you bring us 
insightful words of wisdom regarding animal welfare and the 
challenges that lie ahead for animal agriculture. I am sure Mr. 
Stenholm would agree that it is our job as members of this 
committee representing our agricultural constituents back home 
to stand strong for our producers and stand up to anyone 
wishing to put them out of business.
    I must applaud the animal agriculture industry for the 
great strides they have made over the years to address animal 
welfare. Producers have been proactive in the humane treatment 
of animals by implementing industry-led standards and 
guidelines based on the latest scientific recommendations for 
animal welfare and I might add their own concern for their own 
animals. Farmers, ranchers and sound science-based 
veterinarians, not activists, should be dictating animal 
husbandry practices. I am pleased to see representatives of the 
scientific and research community as well as the livestock 
industry that are here to share with us the programs and 
measures they have in place to ensure animals are treated with 
the utmost of care.
    Mr. Chairman, with the farm bill looming, I would like to 
express my concern about the timing of the hearing. I think we 
all recognize that we are in the middle of working on the farm 
bill and the hearings we have should directly relate to farm 
bill issues, especially considering the time constraints we are 
under. Given the fact that I do not believe these issues should 
be included in the farm bill, I do question the timing of the 
hearing. I believe everyone would be better served if we 
address these issues outside of the farm bill venue so that 
they can receive the attention they deserve.
    Having said that, I appreciate you and applaud your efforts 
to be inclusive in this hearing and I appreciate the witnesses' 
time in being here today. Thank you.
    Mr. Boswell. Thank you, Mr. Hayes. I notice we have the 
Chairman of the Full Committee with us and I would like to 
offer an opportunity for Congressman Peterson at this time.

   STATEMENT OF HON. COLLIN C. PETERSON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MINNESOTA

    Chairman Peterson. I thank the Chairman and the Ranking 
Member for their leadership in calling this hearing. I have got 
a statement but I think we have got a fairly long list of 
witnesses so I am just going to include the statement for the 
record and look forward to hearing the testimony.
    Mr. Boswell. Thank you, and I recognize Mr. Goodlatte, who 
is the Ranking Member of the Full Committee.

 STATEMENT OF HON. BOB GOODLATTE, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF VIRGINIA

    Mr. Goodlatte. Thank you, Mr. Chairman, and I would like to 
take this opportunity to welcome each of our witnesses today 
and to thank them for their time and effort in addressing the 
complex issues of today's hearing.
    In my conversations with Chairman Peterson, he has laid out 
a very challenging and aggressive schedule for the pending farm 
bill. For that reason, I am curious why we are having this 
particular hearing at this particular time. While we all share 
the same values in regard to animal welfare, the practical 
application of those values requires significantly more time 
and thoroughness than this hearing affords. Additionally, this 
hearing lacks the participation of the sheep industry or the 
packers including poultry, pork and beef sectors or animal 
exhibitions such as zoos, circuses, marine animal parks, rodeos 
or companion animal representatives. I think that if we were to 
have a complete record on this topic, we need to hear from all 
of them as well.
    Like all Americans, I support the humane treatment of all 
animals including those in our Nation's farms and stockyards, 
research facilities, processing plants, exhibitions and our 
homes. It is our responsibility to be good stewards of the 
animals under our charge.
    Let me be clear on this point. I know that I speak for my 
colleagues on this committee when I say that the inhumane 
treatment of animals will not be tolerated. In conversations I 
have had with farmers and ranchers across the country, it is 
clear that the animal agriculture industry shares this strong 
belief and appreciate for the animals in their care. These 
farmers work alongside their animals day in and day out. These 
animals are the very livelihood of many farmers in the 6th 
District of Virginia and elsewhere. For that reason, the animal 
agriculture industry continues to develop practices on its own 
that meet the evolving scientific research on animal welfare. 
As we discuss these issues going forward, I will continue to 
take my guidance from the men and women involved in animal 
agriculture, trusting in the knowledge that they both care 
about their animals and understand the challenges associated 
with their care.
    Mr. Chairman, I look forward to the testimony of today's 
witnesses and their responses to our questions. Thank you.
    Mr. Boswell. Thank you, Mr. Goodlatte. I appreciate you 
being with us today.
    The chair would request that other members submit their 
opening statements for the record so that witnesses may begin 
their testimony and we will do our best to ensure that there is 
ample time for questions.
    So at this time I would like to welcome our first panelist 
to the table, the Honorable Charlie Stenholm. Mr. Stenholm, 
please begin when you are ready.

 STATEMENT OF HON. CHARLIE STENHOLM, OLSSON, FRANK AND WEEDA, 
                     P.C., WASHINGTON, DC.

    Mr. Stenholm. Thank you, Mr. Chairman, Ranking Member 
Hayes, members of the committee. I appreciate very much the 
opportunity to testify here today on behalf of all animal 
agriculture. If you eat or wear clothes, you are affected by 
agriculture. The industry remains an important part of the 
United States economy. According to USDA, animal products 
account for the majority, 51 percent, of the value of U.S. 
agricultural products, exceeding $100 billion per year.
    I am sure many of you went to zoos as a child or will bring 
your children or grandchildren to one this summer. Caregivers 
at zoos nationwide care about the welfare of their animals. 
Many of you probably remember the first time you saw a circus 
and may attend one when it comes here. The Ringling Brothers 
Barnum and Bailey Center for Elephant Conservation has one of 
the most successful breeding programs for endangered Asian 
elephants outside of Southeast Asia. They care about the 
welfare of their animals. Just like these groups of animal 
owners, production agriculture has not and will never be given 
the credit it is due by animal rights activists and that we too 
care about the welfare of our animals.
    There is one thing though that everyone you will hear from 
today agrees on. All animals should be treated humanely from 
birth until death. Now, what you will not hear is an agreement 
on the facts. Everyone is entitled to their opinions but not 
everyone is entitled to their interpretation of the facts. You 
will hear testimony today from several livestock producer 
associations and they all care about the same thing: ensuring 
the health and well-being of their animals is their number one 
priority.
    The livestock industry has worked hard both from a 
legislative standpoint through this committee and through 
industry guidelines to improve animal welfare conditions. 
Animal agriculture constantly works to accept new technologies 
and science and apply them to industry, investing millions of 
dollars every year to ensure the wellness of their livestock. 
Producers recognize the need to maintain animal welfare 
regulations for the safety and nutrition of their livestock, 
for the conservation of the environment and for the 
profitability of their operations. But those regulations should 
be based on sound science from veterinary professionals that 
best understand animals, working together with legitimate 
animal use industries.
    While the livestock industry has a long history of 
supporting animal welfare, many activist groups such as PETA, 
the Humane Society of the United States, and Farm Sanctuary 
have used falsehoods and scare tactics to push their hidden 
agendas of fundraising and systematically abolishing all use of 
animals including production agriculture, zoos, circuses and 
sporting events. These groups campaign for animal rights, which 
is not synonymous with animal welfare, using half truths or 
complete deception. These groups also fail to mention the 
millions of dollars in fundraising and assets that drive their 
misguided goals. The Humane Society has accumulated $113 
million in assets, has a budget 3 times the size of PETA's, and 
according to the ActivistCash website, has more than enough 
funding to finance animal shelters in all 50 States. Yet it 
only operates one animal sanctuary, Black Beauty Ranch in 
Texas, which is at full capacity. Now, you will hear later that 
they are doing more, and that is great, we commend them for it, 
but they haven't to this point. According to the Wall Street 
Journal, two offshoots of Humane Society spent $3.4 million on 
Congressional elections and ballot initiatives, which is more 
than Exxon Mobile Corporation spent and there is an ongoing 
investigation by the Louisiana Attorney General to determine if 
the $30 million the Humane Society fundraised during the 
Hurricane Katrina crisis has been handled appropriately.
    Now, these activist groups use the platform of animal 
rights to advocate for regulations so strict they will put 
animal agriculture out of business, which is their real goal. A 
video recently circulated to Members of Conservation and a 
video produced by the Humane Society make numerous false claims 
against the livestock industry. For example, the video suggests 
that horses are inhumanely transported on double-deck trailers 
on their way to slaughter, and if a horse does arrive in one of 
those trailers, the processing facility would not accept it. 
They say that we are still doing it. It has been against the 
law since 1995. In addition, numerous truck drivers invested in 
new trailers at a tremendous investment on their part to comply 
with the law and agriculture has stepped up once again to 
improve animal welfare conditions.
    Another example of misleading rhetoric by animal rights 
activists involves the process of captive bolt euthanasia. The 
previously mentioned videos claim that captive bolt is not 
humane. Interestingly, however, the 2000 report of the AVMA's 
panel on euthanasia specifically approves the use of captive 
bolt as a humane technique of euthanasia for horses. It is also 
an approved method of euthanasia for pork, cattle and lamb. The 
captive bolt method meets specific humane requirements set 
forth by AVMA's panel on euthanasia, USDA and, interestingly, 
the Humane Society of the United States statement on euthanasia 
because it results in instantaneous brain death and is 
generally agreed to be the most humane method of euthanasia for 
livestock. Watching the end of life for any living creature is 
not a pleasant experience, even when performed in the most 
humane manner. However, these groups continue to use human 
emotion and sensationalism to prey on the public's sensitivity 
in order to reach their goal of abolishing animal agriculture.
    Unfortunately, we all know mistakes happen and laws are 
broken. We cannot say that any form of euthanasia is perfect. I 
will not try to convince you or anyone else otherwise. But when 
these unfortunate incidents occur, appropriate action should be 
taken. We should not get in the habit of creating arbitrary, 
uninformed and emotionally based regulations on an industry 
whose livelihood depends on the health and well-being of its 
animals. We should not tie the hands of researchers and 
investors that continually seek improvements in animal welfare 
practices and we should not tie the hands of producers who work 
night and day to ensure the quality of life of their livestock 
so they can provide this country and others with the most 
abundant, safest, and the most affordable food supply.
    In conclusion, Mr. Chairman, professional experts such as 
AVMA, the American Association of Equine Practitioners and USDA 
should not have their expertise continue to be questioned by 
animal rights activists who line their own pockets with 
donations secured by exploiting and distorting the issues. 
These groups throw sensationalistic and often staged photos in 
the faces of those who do not understand it including your 
fellow Members of Congress not on this committee. What they do 
not do is use their millions of dollars in fundraising to build 
animal shelters and provide research for new technologies and 
procedures or provide truthful information to consumers about 
animal agriculture industry. Emotions run high and with 
continued antics by activist groups, the ultimate outcome will 
be devastating. If animal rights activist groups continue to be 
successful like we have seen in recent months with the closing 
of U.S. horse processing facilities, abandonment of animals 
will increase, animal welfare will decline, honest and legal 
businesses will close, America's trade balance will worsen, 
jobs will disappear, family heritage and livelihood will be 
stolen and the best interest in the welfare of animals will be 
lost.
    As the Agriculture Committee, it is your job and 
responsibility to keep science and best management practices at 
the forefront of your decisions when developing legislation. 
Emotional, feel-good policy is not reasonable for the 
agricultural industry. As a committee, you are tasked with 
providing the type of environment for your agricultural 
constituents and your other constituents, the 99.3 percent of 
your constituents who enjoy the food that is produced by the 
.07 percent that in fact are the producers.
    Thank you, Mr. Chairman.
    Mr. Boswell. Well, thank you, Mr. Stenholm. We appreciate 
that. You covered a lot of territory. I didn't know a Texan 
could talk that fast. I appreciate what you said. I have a 
couple questions and then we will go to the rest of the 
members.
    Some of your testimony speaks of the efforts of the 
European Union to regulate animal welfare. What are your 
thoughts on these efforts and has it impacted their trade 
balance?
    Mr. Stenholm. Well, one of the--you look for a pony in the 
pile every now and then in this whole area and just recently 
Britain has decided they have had enough with the animal rights 
activists in Britain where a lot of our folks go to be trained 
in some of the tactics that are used and they have said enough 
is enough, and interestingly, public perception in Europe is 
now beginning to change. Europeans are finally, recognizing 
that if you continue to do as some would have us to do, 
eliminate the use of animals in research and eliminate the use 
of good science and technology in all production agriculture, 
that the world is going to have a hard time feeding itself. So 
that is one of the areas that we have seen a little good news. 
Just this last week USA Today had an article on it, it was the 
first time I had heard about it. But from the standpoint of 
trade balance, I have been fortunate and honored and pleased to 
be declared the spokesman for the Horse Welfare Coalition over 
the last year and a half. Chairman Goodlatte and Ranking Member 
Peterson last year, turned around this year, did an excellent 
job on this committee of showing to our colleagues that ending 
the horse industry, which is what the folks have successfully 
done with the temporary reprieve now with Cavel being back in 
operation as I speak but hopefully a permanent reprieve coming 
soon in which the processing component of the horse industry, 
which adds over $30 million to the export trade surplus for the 
United States, will not be ended. People will say to you, we 
don't have any intention of ending the animal industry but 
folks have been almost successful in ending the horse 
processing industry in the United States at a loss of jobs, 
loss of income and the devastating results now to the horse 
industry that we are already beginning to see.
    Mr. Boswell. Thank you. I have other questions but I think 
I will yield to Mr. Hayes at this time.
    Mr. Hayes. Thank you, Mr. Chairman.
    Mr. Stenholm, it is a rare and unique opportunity to have 
someone of your stature who has been on both sides of the 
witness table and we appreciate what you bring to the table and 
you also have been on both sides of the horse and the cow and 
the livestock industry. Just take a few moments, if you will, 
to describe from your own perspective the attitude and the 
relationship between the rancher and his animals.
    Mr. Stenholm. That is one of the parts of the emotionalism 
of this that has really bothered me, and again, I want to make 
it very clear. I respect the rights of those who you will hear 
from who basically want to eliminate horse slaughter as an 
option. I respect their right to that opinion. But I do not 
respect their right to take that away from me as a horse owner 
or my fellow horse owners. The private property rights option 
is one that the cattle industry and the horse industry and 
sheep industry and all agriculture and it is amazing to me how 
many of our members now in this Congress have suddenly 
forgotten about individual property rights. No one argues about 
how a horse's life should be ended or a calf's life should be 
ended. Well, some do. Some believe no life should ever be ended 
except naturally, but that is a very small minority. But an 
owner of livestock, to be accused of mismanaging or mishandling 
their livestock when their very livelihood depends on that 
animal living a healthy life under the best conditions that you 
can present to them affects the bottom line. Now, this bothers 
some people, the bottom line. But, Mr. Chairman, as you noted 
in your opening statement, we are blessed to live in a country 
that has the most abundant food supply, the best quality, the 
safest food supply at the lowest cost of people in any other 
country in the world. That doesn't happen by accident. That 
happens because producers use the best science and technology 
from the best universities in the world, teaching our young 
people how to do better, how it used to be said in Norman 
Borlog's time, how to make 2 blades of grass grow where 1 grew 
before and then to use that and to use it in a humane fashion.
    With all due respect, I would say that I believe it is good 
we are holding this hearing today because you can be almost 
guaranteed that there will be amendments offered in the 
Congress on an appropriations bill, which got us off on the 
wrong foot with horses a couple years ago, you remember. You 
can imagine that there will be folks that will have amendments, 
and by providing this good record today, showing what ranchers, 
farmers, livestock producers, all individuals who are concerned 
about the welfare of animals what you are actually doing is 
something that I know you have already been using but what we 
have got to do is find a way to get that story out to where 
more of the non-agricultural press begin to pick up on what we 
are really doing in agriculture, not what some people say we 
are.
    Mr. Hayes. Thank you, sir, and one more question. As a 
rancher, is there anything any more important to you as a 
businessman and rancher than the welfare of your livestock?
    Mr. Stenholm. No.
    Mr. Hayes. Thank you, Mr. Chairman. I yield back.
    Mr. Boswell. At this time the chair recognizes Mr. 
Goodlatte.
    Mr. Goodlatte. Thank you, Mr. Chairman.
    Charlie, welcome back. We very much appreciate your 
testimony and very much appreciate the opportunity to work with 
you on this committee for many years including as the Ranking 
Member.
    You mentioned in your testimony that the Humane Society of 
the United States operates an animal sanctuary in Texas. Is 
this sanctuary subject to regulation under the Federal Animal 
Welfare Act?
    Mr. Stenholm. I don't believe that it is but I think you 
will find general agreement that it should be.
    Mr. Goodlatte. Has it been inspected by the U.S. Department 
of Agriculture?
    Mr. Stenholm. Not to my knowledge it has not.
    Mr. Goodlatte. Do you know anything about its compliance 
history with animal welfare regulations?
    Mr. Stenholm. Not to my knowledge, it doesn't.
    Mr. Goodlatte. There is no record at the Federal level?
    Mr. Stenholm. There is no record that we have ever been 
able to determine because again, under current law, I believe 
this approximates what is called private property rights but 
this is an area that quite rightly should be looked at in the 
same venue in which we look at how we have done an excellent 
job of regulating the horse processing industry, for example. 
Every horse that is brought to the plan is inspected. This 
constant statement of stolen horses is not true. Now, when I 
say that, there is always the possibility that one is going to 
slip through the cracks. It is like the unloading of the 
double-decker trucks. Every horse that is euthanized in a 
processing plant, it is done under the supervision of a 
veterinarian. That is not true in other countries of the world. 
So, this is where there is a lot of needs out there by those 
who advocate the abolition of horse slaughter in this case 
without ever answering the question what is going to happen to 
the 100,000 unwanted horses and how are they going to be 
regulated and under what conditions. We are seeing it all over 
the country now, all over the country in which we are already 
beginning to see inhumane treatment of horses by people who 
have good intentions.
    Mr. Goodlatte. I take it if that sanctuary is not inspected 
under the Federal Animal Welfare Act, than other sanctuaries 
for animals are not inspected as well. Is that correct?
    Mr. Stenholm. That is my understanding because in our 
pursuit of legislation and pursuit of bigger and better laws, I 
guess is what you would say, that is one area that has not been 
looked at to the same degree that we have in all of other 
production agriculture. We got a double standard.
    Mr. Goodlatte. I see periodically, even under the current 
circumstances where there are clearly not enough sanctuaries 
for unwanted animals, horses included, of course, in existence 
right now, I see periodic reports even of the number that exist 
today of animals not treated well where local authorities 
intercede to take action for animals that are underfed or not 
given proper treatment or medical care. Do you think that is a 
circumstance that ought to be regulated?
    Mr. Stenholm. That is always a tough call for me because I 
think we have got plenty of regulation in so many areas and I 
always hesitate before I answer a question of that nature. It 
is tremendously costly. I think that is something that we would 
want to look at. Certainly if we are going to follow the line 
that some are advocating in which you are going to have more 
and more unwanted horses that have to be cared for, more and 
more unwanted other animals that have to be cared for. At some 
point in time I think you are going to see a clamor for it. But 
in the same vein in which we have as production agriculture, as 
we have constantly and consistently upgraded our laws and 
regulations to meet the sincere requirements or the commonsense 
requirements for humane treatment of animals, it is amazing 
that we have kind of excused some of the other side from any of 
that.
    Mr. Goodlatte. I see my time is almost expired. Thank you, 
Mr. Chairman.
    Mr. Boswell. Thank you, Mr. Goodlatte.
    The chair at this time would recognize the gentleman from 
California, Mr. Cardoza. Mr. Cardoza has stepped out. Okay. Mr. 
Lampson stepped out. I am just catching up here. I guess I 
should keep up with everybody who is coming and going.
    Mr. Kagen.
    Mr. Kagen. I didn't chase anybody out, Mr. Chairman. They 
left on their own.
    Congressman Stenholm, I am new in Congress, a little over 
110 or 120 days, and I want to thank you for your years of 
service. I have got to ask you, do you miss being a 
Congressman?
    Mr. Stenholm. I don't miss the hours you are keeping and I 
don't miss the controversy that you are involved in. It feels 
pretty good to be up here telling you what you ought to do.
    Mr. Kagen. Well, my father raises horses and he told me 
when I came to Congress I would be getting a lot of advice and 
I appreciate your advice, but you served on this committee 
before and you have seen these issues come up before in terms 
of animal welfare. Has anything changed over the years in terms 
of your point of view, not just back home but also here in 
Congress in terms of how you feel Congress could make a 
difference on the farm or in agricultural control of animals?
    Mr. Stenholm. Yes, I have seen dramatic changes from--this 
will be my 8th farm bill that I have participated in, 2 before 
Congress, 5 in and 1 now after Congress. It used to be back in 
the good old days, as was said, that only had to consult 3 
entities to write a farm bill, or any issue. One was the House 
and Senate Ag committees, 2 was USDA, and 3 was the farm 
organizations. Well, we now have hundreds if not thousands of 
organizations that have an interest and again, as I said in my 
testimony, have every right to have input into the policies of 
our food production system but it makes for a much more complex 
situation and it makes the difficulty of finding a majority 
vote that is helpful is a lot more challenging than it was 28 
years ago when I sat not in that chair but down here.
    Mr. Kagen. Well, would you agree that there is an economic 
interest on all people in agriculture who raise animals for 
eventual slaughter or for use in food production to keep their 
animals happy and healthy and their general welfare? Isn't 
there an economic interest to keep them in that condition?
    Mr. Stenholm. Absolutely. Here again, I respect all 
opinions. My opinion differs from what is humane treatment and 
the most acceptable from some of the animal rights folks. That 
is the biggest disagreement I have with the idea that animals 
have rights like humans have rights. All animals deserve to be 
humanely treated from birth until death, period. Definitions of 
humane treatment from birth until death differ, particularly 
with those of us who raise animals and those who only consider 
them pets.
    Mr. Kagen. Very good. Thank you very much.
    I yield back my time.
    Mr. Boswell. Thank you.
    The chair now recognizes the gentleman from Texas, Mr. 
Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    Welcome, Charlie. Good to see you here this morning. There 
has also been restrictions placed on our ability to manage wild 
horses and wild burros on Federal lands being swept into this 
whole issue as well. What is your understanding of how those 
excess horses and burros are being warehoused?
    Mr. Stenholm. This is an interesting phenomenon that we 
have today because in the wisdom of Congress several years ago, 
we decided that excess wild horses could not be processed for 
human consumption and therefore must be preserved until their 
natural death or they are adopted and most of us in production 
agriculture agree that adoption of wild horses is the preferred 
alternative. The last resort is slaughter for human 
consumption. But now we have somewhere around 30,000 wild 
horses unadoptable, unwanted that are being fed in feed lots 
and other pasture operations at a cost to taxpayers 
approximating $50 million a year and we are going to add 
another 4,000 surplus horses to that number this year. Now, 
here is where I have a little bit of problem with what I guess 
kindly I would have to say is a little hypocrisy because many 
of the same groups that say it is inhumane to keep wild animals 
in zoos say it is perfectly all right to keep a wild animal in 
a pen, a wild horse or a wild burro. Now, that is where common 
sense gets in the way of good policy and that is why it is so 
emotional. But we are talking about real horse owners, the 
majority of which disagree with the majority of Congress and 
with the majority of this House voted and a majority of the 
Senate committee. They will tell you privately, we understand 
but it is emotionalism and that is scary but you bring up a 
point that again common sense needs to be prevailing in this 
and it doesn't make sense to spend $50 million a year feeding 
unwanted wild horses.
    Mr. Conaway. My second question was going to be, if those 
feed lots were zoos, would they meet standards for maintaining 
animals? A horse is a roaming type of an animal and to keep it 
locked in the feed lot for years, cattle go into feed lots for 
a limited amount of time but putting a horse into a feed lot 
environment for the rest of its natural days to me seems 
noticeably cruel.
    Mr. Stenholm. I have to assume that they are because that 
is under the jurisdiction of the BLM and I have to assume that 
the regulations like Mr. Goodlatte was asking about, private 
facilities, do not apply there but I think this is a question 
that I would recommend to this committee to ask the appropriate 
committee in the Interior to do a little oversight on this. I 
don't think we have done any oversight that I can remember and 
that is a long time.
    Mr. Conaway. We have asked for pictures and we are trying 
to get those. Let me ask you this. Under the Fifth Amendment, 
by taking personal property away from folks, which is in effect 
what this destroying the horse processing business does, do you 
see the Federal Government having a responsibility for all of 
these abandoned horses as a result of not being able to sell 
them into a market that previously existed? In other words, is 
there an unfunded mandate that we passed that forces counties 
to now take care of these horses that are abandoned? Should 
that be the Federal Government's responsibility to assume 
responsibility for those horses that this business has taken 
out by these new regulations, new laws?
    Mr. Stenholm. Only if the Federal Government insists on 
following a procedure in which the Federal Government 
determines what is going to happen to the unwanted horses. Then 
I think it is natural the Federal Government should assume the 
responsibility. It is like what we have done with wild horses. 
We have assumed that. But, I have been working with the 
livestock marketing association. The first people that have 
come in contact now with this unwanted horse phenomenon has 
been the people bringing their horse in to the livestock 
auction to sell it and they are being turned away because they 
are being told we can't buy your horse; what do you mean, you 
can't buy my horse? The Federal Government has now provided 
laws enforced by the courts so far that we can't buy your horse 
to go to a processing plant. What do you mean, you can't buy my 
horse? It is my horse.
    Mr. Conaway. Well, actually I can't sell my horse.
    Mr. Stenholm. Yes.
    Mr. Conaway. Or, why can't I sell my horse?
    Mr. Stenholm. Why can't I sell my horse, why can't you buy 
my horse? That is a good question and it is one the legal 
courts are ultimately going to have to decide of which I 
believe as you, I believe by the nature of your question, 
believe, it is a private property right. Taking away that right 
is bordering on unconstitutionality.
    Mr. Conaway. Thank you, Mr. Stenholm.
    Mr. Chairman, I yield back.
    Mr. Boswell. Thank you.
    The chair at this time would recognize the gentleman from 
California, Mr. Costa.
    Mr. Costa. Thank you, Mr. Chairman. I appreciate the 
opportunity to hear from our distinguished colleague and friend 
who I think is well respected, as it has already been 
established.
    In your testimony, Mr. Stenholm, you talked about what 
constitutes in your mind animal welfare that is reflective of 
the care that I think we all want to see provided whether we 
are talking about one person's animals or whether we are 
talking about, in the case of animal and livestock industries, 
business efforts that also constitute proper care of animals. 
Have you or your organization had an opportunity beyond Texas 
to look at and examine or your organization the list of animal 
welfare laws that exist in the country today, and if your 
organization has, do you have an ability to reflect on what 
areas and which States are working better than others? It seems 
to me that under the theory that, you know, there is really not 
that much that is new under a lot of this, that taking a 
reflection of what a lot of States have done, some efforts have 
been I think positive, some have not worked as intended and 
some have always faced, as I like to say, the law of unintended 
consequences. I am wondering if you could give us a snapshot in 
terms of what you sense, what your organization senses as 
occurring around the country.
    Mr. Stenholm. Well, we have got more and more States 
getting involved in determining what is humane and inhumane 
treatment of animals. That is one of the concerns that I bring 
to this committee. You know, at some point we have got to have 
some uniformity in what the standards are. It is going to be an 
impossible situation to have differing States with differing 
rules and regulations in modern commerce. You know, we have had 
the attacks on the veal industry and certain States have 
outlawed veal production. We have had the sow stalls 
controversy now that is creating a lot of consternation in the 
pork industry and again, sow stalls and what you replace them 
with or what you do to me always needs to be based on the sound 
science and what is best for the pigs. There are different 
opinions on that. Different States are beginning to involve 
themselves. Ranking Member Goodlatte mentioned the need of 
regulation in States of some of the animal welfare groups that 
are going to be there. You are going to hear in just a moment 
that there is a big effort now to provide for animal shelters. 
That is great, but under what Federal supervision and should it 
be State supervision? These are questions that you are going to 
have to answer. I specifically speak to the horse issue but 
right now we are in the process of attempting to repeal the law 
in Texas prohibiting it. As I speak, there is a hearing and a 
protest in Illinois regarding the banning of the Cavel 
processing plant. The protest is coming from horse owners 
saying to Illinois, please don't ban horse processing in the 
State of Illinois. You are going to see more and more of this 
because it is so emotional and it is so sensational for those 
on the other side. It is difficult to stand up in a State 
legislature where you served so well for so many years. You 
know the difficulty of dealing with emotionalism and the 
different States doing it is going to wreck havoc on an animal 
industry.
    Mr. Costa. In the remainder of my time, I would like to 
make a suggestion and that is that you, with some of the other 
organizations that are so concerned and I think appropriately 
so, possibly set up a type of a workshop and maybe we do it in 
conjunction with the subcommittee with organizations like the 
National Conference of State Legislatures, with possibly the 
National Governors Association. I mean, I think there needs to 
be a matrix, Mr. Chairman, as we look at what laws exist around 
the country and see if we can get a better understanding of the 
challenges out there, what has worked, what has not worked, and 
see if we can bring about some level of consensus and 
uniformity because frankly, I think this current situation 
status quo is not helpful to the industry. It is not helpful to 
humane treatment for animals in areas where we can I think have 
agreement and it seems to me something that we could work on.
    Mr. Stenholm. Mr. Costa, there is an effort, I believe they 
are called the Animal Alliance, that is set up on the 
agriculture side to help do just what you are suggesting and I 
think that you will be hearing from them quite often.
    Mr. Boswell. Thank you for the suggestion.
    The chair at this time would recognize the gentleman from 
Nebraska, Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman, and thank you, 
Congressman Stenholm, for appearing before us today.
    Growing up in rural America, certainly I have always paid a 
lot of attention to animal issues, livestock issues, and most 
recently, or more recently I should say, it has been brought to 
my attention the commitment that having animals on the premises 
entails, whether it is a small dog or cat or certainly a horse, 
and the financial commitment of caring appropriately whether it 
is the feeding or veterinary expenses as well. You touched a 
little bit on the cost of caring for these wild horses and 
certainly that was a new number for me. It has been brought to 
my attention in my district that there is a concern that you 
have touched on a bit of what do we do with the unwanted horses 
and there has been some concern expressed in my district that a 
rancher might find some unwanted horses on his or her property. 
What then? I mean, are you aware of what the options a rancher 
might have, that are liability issues and certainly in light of 
Federal penalties that may exist? Could you please elaborate?
    Mr. Stenholm. You bring up a very good question, and if it 
is on a ranch and the horse is unwanted, it probably will be 
euthanized with a bullet and allowed--well, it probably won't 
even be buried and nobody will ever know about it. But if you 
are in a non-rural area, you have a problem. Landfills in many 
cities will not accept large animals so you don't have the 
option of euthanasia by a veterinarian, and here it is 
interesting to me when you hear--there are three ways of 
euthanizing that unwanted horse. One is captive bolt, which is 
the most humane, two is bullet, and three is overdose of 
barbiturates. Talk to any veterinarian and they will tell you 
that overdose of barbiturates is not the most humane way to end 
your horse's life. That is what veterinarians tell us. And we 
are already seeing this happening. We are seeing it reportedly 
in Kentucky now, these are thoroughbreds, and contrary to what 
you hear from California, talk to the livestock auctions and 
listen to them what is happening there with mistreated horses 
that come in to them. People bring them in because they find 
them wandering. People don't have the wherewithal financially 
to deal with that question. Renderers, we don't have many of 
those left. In some cases that is an option but you have to pay 
somebody to come get your horse. That gets into what Mr. 
Conaway was talking about a moment ago. What makes the Federal 
Government believe that we in our super wisdom can take away 
the private property right of that individual rancher who finds 
that horse to take it and receive value from if it is still of 
value? What makes us believe that we can do this 
constitutionally, but those are the choices that you are 
putting on those ranchers that you are talking about.
    Mr. Smith. Thank you.
    I yield back.
    Mr. Boswell. Thank you.
    The chair at this time would recognize the gentleman from 
Michigan, Mr. Walberg.
    Mr. Walberg. Thank you, Mr. Chairman.
    I just have one question and I hope it wasn't asked before 
I entered the room but I will take the chance on that. Someone 
said that if we continue down the path that we are on presently 
in relation to animal welfare, specifically the horse slaughter 
bill, that we are basically beginning the roadmap to the end of 
taking meat, pork, poultry and other meats off the dinner 
table. Now, that is a statement I have heard numerous times in 
the past several weeks, and I would, Mr. Stenholm, be 
interested in just seeing how you respond to that. Is that a 
path that indeed we are taking or is that just a scare tactic?
    Mr. Stenholm. I have to say that there are those, I don't 
brand everyone, I don't want to say everyone on the animal 
welfare side is one of these. I don't say that, but there are 
those, and I don't see how even those that are argue that they 
are just for the humane treatment but we don't want to 
eliminate animal agriculture can square that with some of the 
decisions that are now being made regarding how animal 
agriculture shall function for the humane treatment of animals. 
And when you specifically look at one form of livestock, 
horses, you are having a major effect on the economy of an 
industry that is $39 billion by itself, over $100 billion in 
economic activity, and when you remove the floor price for the 
unwanted horse, which is what you do when you remove the 
process buyer, you are reducing the value of all horses in the 
United States of which we have economists at universities that 
have estimated somewhere between $100 and $200 per horse. That 
is a pretty good blow to an industry. Now, there will be those 
that say well, that is just horses, horses are different. They 
are not different. Horses are livestock. They are different to 
you if you own the horse and we make it very clear, if you own 
a horse and do not wish it to be processed for human 
consumption, we are for you, don't sell your horse, euthanize 
it yourself, take it to a renderer. If you are more comfortable 
having your horse piled on top of a garbage heap after it has 
been euthanized rather than having it consumed in countries 
that do it, we are for you. That is called private property 
rights. All we are saying is, it is a slippery slope, and 
remember, the same folks are out to eliminate zoos because it 
is inhumane to keep animals in pens. You have to be the judge. 
And I just say, let us be careful before we take the first step 
down the slippery slope. Let us have everyone with a smile on 
their face acknowledge, I am for the humane treatment of 
animals. I believe Wayne Pacelle, you will hear from the Humane 
Society, is for the humane treatment of animals. I believe 
that. But we have different opinions of what the facts are of 
humane treatment. That is the political side of this that has 
really gotten on a slippery slope and with the 300 million 
Americans who only see what you have seen on your Internet and 
the movies that are being shown about how horses are 
slaughtered, how they are brought to market, how they are 
mistreated, if that is all you see, you tell me where the votes 
are going to be and why you are having such a difficulty with 
your own constituency dealing with this one. And when you have 
$100 million to spend on the campaigns and the politics and the 
media, get ready for the slippery slope to take off.
    Mr. Walberg. I appreciate the response.
    I yield back.
    Mr. Boswell. Thank you.
    The chair recognizes the lady from Ohio, Congresswoman 
Schmidt.
    Ms. Schmidt. Thank you, sir. I didn't have any questions.
    Mr. Boswell. Okay. That is fine. That completes our first 
round of questions. Does anybody on either side have other 
questions?
    Okay. With that, I would thank you, Mr. Stenholm, we 
appreciate your testimony and we would ask that the second 
panel would come to the table.
    I thank the second panel for coming to the table, and by 
matter of introduction, we have beginning Mr. Wayne Pacelle, 
President and CEO of the Humane Society of the United States, 
Washington, D.C. Welcome, Wayne. Glad to have you here. Dr. 
Gail Golab, Ph.D., DVM, Associate Director of Animal Welfare 
Division, American Veterinary Medical Association. We have Mr. 
Steven Leary, DVM, Assistant Vice Chancellor of Veterinary 
Affairs, Washington University, on behalf of the National 
Association of Biomedical Research of St. Louis, Missouri. We 
have Mr. Gene Gregory, President of United Egg Producers from 
Alpharetta, Georgia. We have Mr. Guillermo Gonzalez, Owner, 
Sonoma Foie Gras, on behalf of Artisan Farmers Alliance, 
Sonoma, California. And last but not least, finally, Mr. David 
Martosko, Director of Research, Center for Consumer Freedom of 
Washington, DC.
    So with that, we welcome you all. We appreciate you being 
here. We would like for you, Mr. Pacelle, to please begin when 
you are ready.

   STATEMENT OF WAYNE PACELLE, PRESIDENT AND CEO, THE HUMANE 
         SOCIETY OF THE UNITED STATES, WASHINGTON, DC.

    Mr. Pacelle. Thank you, Mr. Chairman, and thank you for 
inviting me to testify. I am Wayne Pacelle, President and CEO 
of the Humane Society of the United States.
    I feel a little bit unusual in this circumstance, having 
heard Congressman Stenholm. Congressman Stenholm is a respected 
member of the community in Washington and Texas, served a long 
time, but what he did was seek to caricature animal advocates. 
I represent just one organization, one of 10,000 organizations 
that exist in this country, charitable organizations that work 
to alleviate suffering and protect animals from needless 
cruelty. Just our organization has 10 million supporters, which 
is one of every 30 Americans in the country. Mr. Stenholm and 
some of the others whom you will hear from today are seeking to 
caricature the entire cause of animal protection as a bunch of 
folks who want to stop zoos and meat eating and all animal 
research, and it is false. If you look at the issues that the 
Humane Society works on, we work on particular abuses that are 
out of step with prevailing public sentiment in this country. 
Look at every issue that we are behind in this Congress and you 
will see strong support among the American public for our 
position. Unfortunately, historically, and we hope that this 
committee marks a break from the past. This committee has 
completely abrogated its responsibility to have proper 
oversight on animal welfare issues. This is the first hearing 
on animal welfare other than an animal fighting bill in 2000 
that has been held on production agriculture since 1989, 18 
years, and this committee which has authorized and 
responsibility for animal welfare programs hasn't had any 
action on these issues. The USDA unfortunately has also grown 
very close to the industry and we have an unregulated situation 
where there are basically no protections for farm animals at 
the Federal level in production agriculture. There is a humane 
slaughter act that the humane community pushed and there is a 
transport law that was first passed in 1873 that the USDA had 
not enforced until HSUS pushed for its active enforcement.
    I just want to mention a couple of examples to talk about 
how our policies truly are sensible and how we hear this 
hysterical exaggeration about the consequences of the adoption 
of our preferred set of policies. One is the issue of gestation 
crates. These are 2-foot by 7-foot cages that breeding sows are 
housed in for their entire gestation period, for the pre-
birthing period, and they are taken out of the gestation crate 
just before giving birth and then they give birth in a 
farrowing crate, then they are put back into the gestation 
crate. They may endure 7, 8, 9, 10 successive pregnancies in a 
2-foot by 7-foot cage in which they cannot turn around. These 
are curious animals that like to root around in the mud. When 
this issue was put to voters in Florida, when it was put to 
voters in Arizona, the industry, Mr. Stenholm and others said 
this will be the demise of the pork industry, it will be the 
end of animal agriculture in terms of hog production. And what 
we have seen after voters overwhelmingly approved the measures 
in both States was that the largest pig producer in the world, 
Smithfield, has voluntarily agreed to phase out gestation 
crates over a 10-year period.
    We also heard apocalyptic comments about downed animal 
protection. You know, downers are livestock too sick or injured 
to walk and a number of members of this House have pushed to 
stop the policy of abusing downed animals and dragging them 
into slaughter houses for processing for human consumption. It 
was Mr. Stenholm on the Floor of the House who said in 2003 
that no sick animal, no BSE-positive animal, no mad cow can 
ever get into the food supply, and it was just 6 months later 
that a downer cow with BSE found its way into the food supply. 
The consequence of that was pretty severe but it wasn't severe 
in terms of the animal welfare issues. It was severe in terms 
of the economic impact of the industry because 44 nations 
closed their doors to American beef products. The USDA passed 
an administrative rule to ban downers in 2003 and we have seen 
no adverse impact of a downer ban being imposed.
    And we can go on and on. This canard about horse slaughter, 
there were 350,000 horses being slaughtered in the early 1990s. 
Now there is about 100,000. Where did these 250,000 horses go? 
They have been absorbed into this country because there are a 
network of sanctuaries and there is also the matter of 
responsible ownership of animals and how people who are taking 
animals, certainly horses, have a responsibility to care for 
them, and euthanasia is an option on site rather than 
transporting them 1,000 or 1,500 miles.
    In terms of specific policy proposals, Mr. Chairman, there 
is a bill called the Farm Animal Stewardship Purchasing Act 
that deals with some of the worst abuses and intensive 
confinement livestock agriculture including gestation crates, 
veal crates and battery cages. We are seeing tremendous change 
in the private sector already. I have mentioned some of the 
public policy changes.
    Maple Leaf Foods, the largest pig producer in Canada has 
said it will stop using gestation crates. Two of the largest 
veal producers, Strauss Farms and Marcho Farms, have said that 
they are going to stop crating young male veal calves, and the 
head of Strauss called the crates inhumane and archaic.
    In terms of battery cage production, which is the 
predominant egg laying system, each bird under the United Egg 
Producers standards gets 2/3 of an 8-1/2 by 11 sheet of paper 
to live her life in, 8-1/2 by 11, 67 square inches. This is the 
living space for these animals. Now, we can talk all about 
radical animal rights activism, we can hear caricatures of the 
animal welfare movement but the fact is, if this is acceptable 
as a living space for an egg laying hen, then, this is not he 
world I am living in. The public is appalled by the idea that 
animals are intensively confined for such long periods during 
their lifetimes. We are advocating that the Congress include 
poultry under humane slaughter.
    Mr. Boswell. The rest of your testimony, Mr. Pacelle, will 
be placed in the record but time has expired and we appreciate 
your enthusiasm, so----
    Mr. Pacelle. May I just close?
    Mr. Boswell. You may make a short closing remark if you 
wish and then we will move on.
    Mr. Pacelle. Thank you. We are very hopeful that the 
Congress will include an animal welfare title in the farm bill. 
This is an issue that has been long ignored. When the committee 
ignores it, the issue gets addressed in other committees in 
this Congress. It is time for this committee to address these 
issues.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Pacelle appears at the 
conclusion of the hearing:]
    Mr. Boswell. Thank you.
    Dr. Golab.

STATEMENT OF DR. GAIL C. GOLAB, PH.D., DVM, ASSOCIATE DIRECTOR, 
     ANIMAL WELFARE DIVISION, AMERICAN VETERINARY MEDICAL 
               ASSOCIATION, SCHAUMBURG, ILLINOIS

    Ms. Golab. Mr. Chairman and members of the subcommittee, 
thank you for the opportunity to provide comment on behalf of 
the American Veterinary Medical Association. The AVMA comprises 
more than 75,000 members and represents approximately 86 
percent of the Nation's practicing veterinarians. Animal 
welfare is of primary importance to the veterinary profession 
and therefore primary importance to the AVMA.
    This hearing will highlight some differences that exist 
among stakeholders with regard to how we believe animals should 
be used and cared for. An important underlying truth, however, 
is that most people in the United States believe it is 
acceptable to use animals for food and fiber as long as the 
welfare of those animals is good.
    But what is good welfare? When evaluating animal welfare, 
it is important to be clear what people mean. Animal producers 
tend to cite elements of good health and performance as 
evidence of good welfare whereas animal activists are often 
most comfortable when animals are allowed to live in natural 
environments. This dichotomy of use is a result of different 
experiences leading to different value frameworks. The AVMA 
believes animal welfare science is an important tool that can 
be used successfully to bridge these dichotomies.
    Although the degree of importance attributed to each 
element making up an animal's welfare state may vary, the AVMA 
believes no assessment is complete unless all elements are 
considered. It is not satisfactory, for example, to judge the 
welfare of an animal on the basis of its physical health 
without regard to whether it is suffering or frustrated nor is 
it appropriate to conclude that an animal that can engage in 
species-typical behaviors has a good state of welfare without 
also evaluating its health and biologic function. Veterinarians 
by virtue of their broad-based training are extraordinarily 
well positioned to integrate and bring the relevant elements of 
animal welfare science to the table to assist key decision 
makers like yourselves in making good decisions.
    Two issues currently under the microscope of animal welfare 
advocates can be used to demonstrate the power of animal 
welfare science to help make decisions and ensure positive 
animal welfare outcomes. These issues are space allowances and 
cages housing laying hens and usage of station stalls to house 
pregnant sows. With respect to cages, the egg industry pulled 
together a multidisciplinary, multistakeholder advisory 
committee and charged them with making recommendations for 
revision of that industry's animal care guidelines. After 
conducting a scientific review, this advisory committee 
suggested cage space needed to be increased. By phasing in 
space allowances according to science-based parameters, hen 
welfare improved and economic benefits were also realized. This 
experience taught us two important things: first, that science 
could be used to help define and resolve an animal welfare 
problem, and second, that science should be used to help draft 
animal care guidelines rather than being called in after the 
fact.
    The use of gestation stalls is an example of where animal 
welfare science can point out fallacies and simplistic 
solutions. Comprising individuals representing expertise in 
multiple disciplines and multiple stakeholder interests, the 
AVMA's task force on the housing of pregnant sows conducted a 
comprehensive review of the scientific literature on housing 
systems with the intent of determining whether gestation stalls 
were appropriate. In this case, the science couldn't identify a 
particular system as being unequivocally superior but it did 
provide information suggesting that simply banning gestation 
stalls was probably not a quick and easy solution to improving 
sow welfare overall.
    Animal welfare is an increasing public interest but the 
American public has little direct connection with the actual 
process of raising animals for food and fiber. As a result, 
sometimes people become fixated on forcing changes that they 
think will improve animal welfare when in reality that might 
not be the case. At the same time, the public's desire for 
inexpensive, high-quality food products can create conflicts 
between human and animal interests and the industry's efforts 
to meet those demands and remain profitable. Pulling together 
societal expectations and industry needs means that guidelines 
for animal care must be both science-based and dynamic.
    Common sense and science depend on each other to reach 
sound conclusions on animal welfare. In acting on 
recommendations regarding animal welfare, the AVMA hopes 
Congress will ensure that, one, sound science serves as a basis 
for any recommended interventions; two, actions are consistent 
with the reason for the intervention and are based on a 
comprehensive risk assessment; three, responses are 
proportionate and a complete assessment of costs and benefits 
is performed; four, decisions are made in partnership with key 
stakeholders; and five, resulting actions will promote a 
sustainable agricultural industry as well as meet societal 
expectations. I have submitted a written statement with 
additional comments and materials for the subcommittee to 
consider and I ask that this information be included in the 
record of these proceedings.
    On behalf of my profession and our association, I sincerely 
thank you for the opportunity to appear today.
    [The prepared statement of Dr. Golab appears at the 
conclusion of the hearing:]
    Mr. Boswell. I recognize Mr. Leary.

 STATEMENT OF STEVEN L. LEARY, DVM, ASSISTANT VICE CHANCELLOR, 
    VETERINARY AFFAIRS, WASHINGTON UNIVERSITY, ON BEHALF OF 
   NATIONAL ASSOCIATION FOR BIOMEDICAL RESEARCH, ST. LOUIS, 
                            MISSOURI

    Mr. Leary. Thank you for allowing me to testify today and 
for conducting this hearing on animal welfare. By the way, Mr. 
Chairman, I was born and raised in Des Moines and graduated 
from Iowa State. It is nice to see you here.
    I am testifying today on behalf of the National Association 
for Biomedical Research. NABR is the only national nonprofit 
organization dedicated solely to advocating sound public policy 
that recognizes the vital role of humane animal use in 
biomedical research, higher education and product safety 
testing. Founded in 1979, NABR provides the unified voice for 
the scientific community on legislative and regulatory matters 
affecting laboratory animal research. NABR's membership is 
comprised of more than 300 public and private universities, 
medical and veterinary schools, teaching hospitals, voluntary 
health agencies, professional societies, pharmaceutical and 
biotechnology companies and other animal research-related 
firms.
    Animal research has played a vital role in virtually every 
medical advance of the last century for both human and animal 
health. Ample proof of the success of animal research can be 
found in the vast body of Nobel Prize-winning work in 
physiology and medicine where 68 awardees since 1901 have 
relied at least in part on animal research. Thanks to animal 
research, many diseases that once killed millions of people 
every year are either treatable or have been eradicated all 
together. Six of the discoveries related to cancer using 
animals were recognized with the Nobel Prize, among them bone 
marrow transplantation, cloning of the first gene and the 
discovery that a normal cell could have latent cancer genes. 
Animal research for animal health has also resulted in many 
remarkable life-saving and life-extending treatments for 
animals. Pacemakers, artificial joints, organ transplants and 
vaccines contribute to longer, happier and healthier lives for 
animals. Through research with animals, sciences are learning 
more every day.
    Key findings from a recent national public opinion survey 
on animal research found overwhelming support. In fact, 81 
percent agree with medical and scientific research using 
laboratory animals if they believe it will help alleviate 
suffering from a serious disease. Animal research is still a 
requirement.
    Research on animals is in many cases an obligation that 
prevents humans from being used as medical guinea pigs. The 
Declaration of Helsinki states that medical research on human 
subjects should be based on accurately performed laboratory and 
animal experimentation. Responsible regulation is a very 
important component of oversight to instill public confidence 
in animal research. Congress already has provided the mechanism 
for assurances of proper care and treatment of laboratory 
animals with the 1966 enactment of the Animal Welfare Act and 
multiple subsequent amendments. For example, the 1985 
amendments require the establishment of the Institutional 
Animal Care and Use Committee, or IACUC. The IACUC, which is 
taken very seriously by each research institution, is an 
internal committee that is charged with reviewing, approving 
and monitoring research protocols. IACUC approval for a 
proposed research project must be acquired before any 
government funds can be secured and any animals used.
    Many institutions have gone above and beyond what is 
required of them by the law. Ninety-nine of the top 100 NIH 
awardee institutions have voluntarily sought accreditation with 
the association for Assessment and Accreditation of Laboratory 
Animal Care.
    In addition, a number of non-animal procedures and tests 
have been developed to supplement animal research. Computer 
modeling and in vitro testing serve as valuable adjuncts to 
basic animal research but there is still no replacement for 
animal research.
    In conclusion, we are all challenged with that delicate 
balance of ensuring the public trust and the highest standard 
of care for laboratory animals with a regulatory mandate that 
still allows the freedom of inquiry so important to medical 
discovery. We who are directly involved with animal research 
share this challenge and concern. In fact, it is that very 
concern which has drawn many of us to choose careers in 
veterinary medicine or medical research. We too have family 
members who contract diseases. We too have pets that become 
ill. For these reasons, we are dedicated to finding ways to 
cure both human and animal ailments. In the words of the 
esteemed Dr. Michael E. DeBakey, chancellor emeritus of the 
Baylor College of Medicine and director of the DeBakey Heart 
Center: ``These scientists, veterinarians, physicians, surgeons 
and others who do research in animal labs are as much concerned 
about the care of the animals as anyone can be. Their respect 
for the dignity of life and compassion for the sick and 
disabled in fact is what motivated them to search for ways of 
relieving the pain and suffering caused by diseases.''
    Thank you, Mr. Chairman and members of the subcommittee 
again for this opportunity to testify.
    [The prepared statement of Dr. Leary appears at the 
conclusion of the hearing:]
    Mr. Boswell. Thank you, Mr. Leary. We will recognize Mr. 
Gregory.

  STATEMENT OF GENE GREGORY, PRESIDENT, UNITED EGG PRODUCERS, 
                      ALPHARETTA, GEORGIA

    Mr. Gregory. Thank you, Mr. Chairman. My name is Gene 
Gregory and I am the President of United Egg Producers. I have 
worked for UEP for the past 25 years. Earlier in my career, I 
was in the egg business working for Corn Belt Hatcheries in 
central Illinois for more than 20 years. About 90 percent of 
all the eggs in the United States are produced by our UEP 
members. We are a farm cooperative and we also administer a 
program of animal husbandry standards called the UEP Certified 
Program, which I will discuss later.
    UEP prides itself on being a forward-looking, proactive 
organization. We have helped our industry respond to 
environmental concerns, animal diseases and other challenges. 
We approach animal welfare in the same spirit. It is 
increasingly important to our customers in food retailing and 
food service and to American consumers. Unfortunately, this is 
also a subject that lends itself to emotional, unsubstantiated 
allegations and extreme tactics.
    If we reduce animal welfare to emotion or subject views of 
what feels right, we will base the care of animals of nothing 
more than opinion and endless argument. That is not good 
enough. Instead, we need to use science. That is why in 1999 
UEP commissioned an unpaid scientific advisory committee to 
review the animal welfare standards we had at the time and 
advise us about science-based changes we should make. The chair 
of that committee, Dr. Jeffrey Armstrong, is a dean of the 
College of Agriculture and Natural Resources at Michigan State 
University. He brought together nine other scientists and 
together they recommended significant changes in egg production 
practices. Today about 85 percent of our industry has 
implemented these standards including an increase in the amount 
of space for each bird in cage production systems with the 
increase ranging from 26 to 40. Dr. Armstrong has written on 
behalf of the entire committee saying we believe these 
guidelines set the baseline for humane care.
    The committee's recommendations became what is now the UEP 
Certified Program. This program features a trademark seal 
approved by the Federal Trade Commission and the USDA that 
producers that can place on their egg cartons if they adhere to 
the UEP Certified guidelines. Every participating producer is 
subject to an annual third-party audit by the USDA's 
Agriculture Marketing Service or Validus Services, and if a 
producer wants to be a part of the UEP Certified program, all 
of that producer's operations must conform to our animal care 
standards. We are confident that our program reflects the best 
science. Many of the scientists on our committee have also 
helped developed standards for major food service chains such 
as McDonald's and Burger King. Our program also has been 
endorsed by the Food Marketing Institute representing the 
Nations' major food retailers and the National Council of Chain 
Restaurants.
    At UEP, we are in favor of consumers having choices 
including cage-free, free-range and organic eggs which some of 
our members produce. However, we vigorously dispute the 
proposition that only free-range or cage-free production is 
humane. We disagree with that view and so does our scientific 
advisory committee. Cage housing systems protect birds from 
predators and diseases such a highly pathogenic avian 
influenza. Cage systems also may reduce pecking and other 
aggressive behavior including cannibalism. The way eggs are 
handled in cage systems may also reduce the chances that the 
outside of the egg will be contaminated with its feces, 
offering a food safety benefit. If consumer choices are 
restricted as some animal rights activists would like to do, 
the consequences would be higher food costs for low-income 
Americans and a greater strain on our land resources. If all 
U.S. production had to be free range, consumers would have to 
pay an additional $4.65 billion every year for eggs and we 
would need to find additional land resources roughly the size 
of the State of Delaware.
    Frankly, there is nothing our industry could do short of 
all declaring bankruptcy and leaving the farm that would 
satisfy some of the activist groups. UEP has been a target of 
these groups, even as we have tried to implement the best 
science-based guidelines for the care of laying hens.
    UEP asks the members of this subcommittee to help us 
educate your colleagues about the importance of animal 
agriculture and the shortsightedness of legislation that would 
harm our industries. We ask you to resist amendments to the 
2007 Farm Bill that would harm animal agriculture including 
efforts to set new and arbitrary standards for Federal 
procurement. The marketplace is the appropriate place to 
establish science-based standards that will allow consumers to 
make their own choices.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Gregory appears at the 
conclusion of the hearing:]
    Mr. Boswell. Thank you, Mr. Gregory.
    Mr. Gonzalez.

 STATEMENT OF GUILLERMO GONZALEZ, OWNER, SONOMA FOIE GRAS, ON 
     BEHALF OF ARTISAN FARMERS ALLIANCE, SONOMA, CALIFORNIA

    Mr. Gonzalez. Good morning, Chairman Boswell, Ranking 
Member Hayes and members of the subcommittee. My name is 
Guillermo Gonzalez. I am a farmer and the owner of Sonoma Foie 
Gras. I am here today on behalf of the Artisan Farmers 
Alliance, a new group that represents the three farms in the 
United States that produce foie gras. Thank you for the 
opportunity to set the record straight about our farming 
practices and to share with you the struggle of our three small 
farms to stay in business in the face of an aggressive assault 
by extremist animal activists.
    Foie gras is French for ``fat liver.'' It dates back to 
ancient Egypt where they depicted the hand feeding of waterfowl 
in colorful relief paintings. Over the centuries, it became an 
integral part of French cooking. As you may be able to tell 
from my accent, I am not French. I was born and raised in El 
Salvador. In the 1980s I moved to France to learn traditional 
foie gras farming techniques. Then in 1986, I moved to Sonoma 
County, California, and began to produce foie gras and other 
duck products. I operate a very small farm set in a walnut 
orchard southeast of Stockton in California's great Central 
Valley. Last year I raised 50,000 ducks. To put this in 
perspective, a modern poultry plant processes more birds in a 
single 8-hour shift than I do in an entire year.
    On my farm, we still use very traditional methods and I am 
proud of our operations. As anyone who has ever worked in 
animal agriculture will tell you, there is no one who cares 
more about animal welfare than farmers. My entire livelihood 
depends on the health of my flocks. The peer-reviewed 
scientific studies support our methods and conclude that the 
feeding does not create abnormal stress in ducks, and in each 
of the last 2 years the American Veterinary Medical Association 
has reviewed the foie gras issue and rejected calls to label it 
inhumane. Last year the AVMA sent a blue ribbon panel to review 
firsthand the operations on a foie gras farm.
    While we farmers focus on the objective science, we are 
attacked on the basis of emotional appeals. Of course we 
understand that some people will choose not to eat our product 
just as some people will choose not to eat beef or chicken or 
fish. That is their right. But what about the rights of other 
individuals to make their own decisions about what they do or 
do not eat?
    Huge multimillion-dollar organizations are trying to limit 
consumer choices and drive us out of business. They have tried 
to ban the sale of our USDA inspected and approved products in 
many jurisdictions and they have filed countless lawsuits 
against us in an effort to drive us out of our land and into 
bankruptcy. In many cases, activists have gone well beyond the 
law in their zeal to impose their views on others. My own farm 
and the two other U.S. foie gras farms, both in upstate New 
York, have been broken into and vandalized repeatedly. They 
trespass, damage our property, steal our animals and sometimes 
do much worse.
    In 2002, my wife and I took our retirement savings from 
years of hard work and decided to open a restaurant in Sonoma, 
California. As the construction was in progress, violent animal 
activists broke into the restaurant's historic building, filled 
the drains with concrete and turned on the water faucets. They 
scrawled on the wall ``stop or be stopped, death, scum, 
torturer.'' Perhaps even worse for me as an immigrant, they 
spray-painted ``Go home.'' The restaurant was ruined and we 
lost our savings. Bad as it was, I am lucky compared to my 
business partner. Activists stalked him and his family 
including his small child. Secretly, they videotaped them in 
their daily routines. One day his wife found a wrapped package 
containing the tape in their front yard with a note saying ``We 
are watching you.''
    These stories highlight a disturbing trend. Acting in the 
name of animal rights, some seem to have forgotten the human 
rights of farmers. Animal rights groups need to realize that 
their inflammatory rhetoric has real consequences. They call me 
a torturer. Mr. Baur's own written testimony today equates 
animal agriculture with slavery.
    This subject of animal welfare needs less heat and more 
light. We need a discussion based on science, fact, reason and 
experience rather than emotional anthropomorphic appeals. This 
is increasingly important as fewer and fewer Americans have a 
personal experience with agriculture. The truth is that food 
doesn't come from supermarkets. It comes from the hard work of 
farmers and we ought to respect farmers for the hard work they 
do, not demonize them.
    Thank you for this opportunity to speak with you today.
    [The prepared statement of Mr. Gonzalez appears at the 
conclusion of the hearing:]
    Mr. Boswell. Thank you, Mr. Gonzalez. We would like to 
recognize now Mr. Martosko.

 STATEMENT OF DAVID MARTOSKO, DIRECTOR OF RESEARCH, CENTER FOR 
               CONSUMER FREEDOM, WASHINGTON, DC.

    Mr. Martosko. Thank you, Mr. Chairman and members of the 
subcommittee for inviting me here today. I am David Martosko, 
Director of Research at the nonprofit Center for Consumer 
Freedom. We are based here in Washington and it is managed by 
Berman and Company, a public affairs and association management 
firm. Support for the center comes from members of the general 
public and from private industry including restaurant and food 
companies.
    I am very happy to see so many people here today who 
actually know something about animal agriculture but I must 
urge you to be skeptical of organizations that propose to 
extend human rights to animals. Groups like these do include 
the Humane Society of the United States, Farm Sanctuary, People 
for the Ethical Treatment of Animals, PETA, and PETA's quasi-
medical affiliate, the Physicians Committee for Responsible 
Medicine. These groups are all led by strict vegans who 
discourage Americans from eating any meat no matter how 
humanely it is raised. Now, that is not a caricature, that is a 
fact. When the topic of discussion is how to make livestock 
farming better, the complaints of radical vegans should be seen 
for what they are, an attempt to dismantle animal agriculture, 
not improve it. Their true agenda is to put livestock farmers 
out of business and we should all recognize their ulterior 
motives.
    Let me express this to you in political terms. What if Rush 
Limbaugh suggested that the Democratic National Committee 
should invite him into its planning meetings or what if Cindy 
Sheehan put her own name forward to moderate a Republican Party 
debate? Now, the last thing Cindy Sheehan wants is for the GOP 
to improve itself. She wants its marginalized and made less 
powerful. The same is true about Mr. Limbaugh and the DNC and 
it is also true of HSUS and the entire livestock food chain 
including farmers, ranchers, packers, restaurants and 
retailers. Encouraging the input of people who want to crush 
you is a strange way of seeking sensible reform. And keep in 
mind that despite its name, the Humane Society of the United 
States is not affiliated with any local humane society anywhere 
in the United States. Now, few Americans know this. So HSUS 
uses public goodwill that it doesn't deserve in order to raise 
millions, and all that money gives HSUS the power to unfairly 
attack just about every segment of animal agriculture.
    I was really pleased to hear Mr. Gonzalez speaking just 
before me, and look what has happened in the case of foie gras. 
HSUS and Farm Sanctuary aren't pushing for animal welfare 
reform, they want abolition. They are trying to outlaw a kind 
of animal protein that many people enjoy. Now, I have never 
tasted foie gras but who are these people to decide I shouldn't 
have the chance to try it? When zealots ban books because of 
their politics, millions of us rise up. Why isn't banning food 
for political reasons viewed the same way? And what is next? A 
speakeasy where a secret password will be required to get a 
veal cutlet? Wouldn't that be ironic too? Veal farmers spend 
tons of money paying veterinarians to audit their farms. They 
provide a purpose for male dairy calves that would otherwise be 
destroyed at birth. HSUS and Farm Sanctuary ought to be 
promoting veal but they would rather see it disappear to make 
room for a vegan utopia and besides, it is good for 
fundraising.
    In 2005, after the Humane Society of the U.S. released its 
guide to vegetarian eating, one manager of the group told the 
animal rights movement magazine that his organization's goals 
include, and I quote, ``promoting vegetarian eating.'' And Mr. 
Pacelle said HSUS was ``doing a guide to vegetarian eating to 
really make the case for it.'' Just last week HSUS ranked U.S. 
cities according to what it calls a humane index, and one part 
of the index which they call humane eats, it is a scorecard, it 
judges how humane a city's dining options are by counting just 
one thing: the number of vegetarian restaurants per capita. 
That is all they care about. HSUS is judging that only meatless 
eating should be considered humane. You see, no matter how much 
farmers take their animals' welfare into account, animal rights 
leaders won't be satisfied until all animal protein disappears 
from our diets. The truth is that HSUS and PETA share the same 
long-term goals: no meat, no dairy, no animal ag, period, more 
rights for animals, fewer for you and me. HSUS is basically 
PETA with a nicer wristwatch and fewer naked interns.
    Now, please don't misunderstand me. My organization is not 
an anti-vegetarian group. We are interested in protecting all 
dietary choices including those of the tiny segment of 
Americans who choose to be vegetarians. It is a free country. 
But when groups with huge budgets mislead Americans about food 
they don't believe we should be allowed to choose, that is not 
fair. For instance, right now on HSUS's website, they overstate 
the fat content of chicken by over 500 percent in order to 
discourage people from eating it. That is not fair. Now, I can 
almost understand why animal rights groups spread this kind of 
misinformation. If you believe that a veal calf or a breeding 
sow or a lab rate is worth the same as my mother or your 
daughter, then of course it is remarkably easy to invent moral 
justifications for cutting factual corners or breaking election 
finance law as Farm Sanctuary did hundreds of times in the 2002 
Florida elections, or even in the case of ones spokesperson for 
the Physicians Committee for Responsible Medicine, advocating 
the murder of people who don't agree with you.
    I will leave you with this last thought. Congress could 
require U.S. farmers to supply every pig, chicken, duck and cow 
with private rooms, daily rubdowns, video iPods, organic meals 
catered by Wolfgang Puck. You could do all of this but it still 
wouldn't satisfy activists who actually believe farm animals 
have the right not to be eaten no matter how they were raised.
    Thank you very much for inviting my testimony.
    [The prepared statement of Mr. Martosko appears at the 
conclusion of the hearing:]
    Mr. Boswell. Well, thank you, Mr. Martosko. You made 
several pretty strong statements. Are you saying that Mr. 
Pacelle and his organization do not want any human consumption 
of meat or animal?
    Mr. Martosko. Yes, absolutely, and their own literature and 
their own website points this out. Mr. Pacelle said that the 
reason they came up with the vegetarians guide was----
    Mr. Boswell. I am reclaiming my time. Thank you.
    Mr. Pacelle, is that correct?
    Mr. Pacelle. No, it is absolutely incorrect as are a 
laundry list of other statements from Mr. Martosko, who today 
is attacking the Humane Society. On other days he attacks 
Mothers Against Drunk Driving for its efforts to keep people 
who are inebriated off the road, public health----
    Mr. Boswell. You are expanding. Because of time--thank you. 
So you----
    Mr. Martosko. Mr. Chairman, we support a program----
    Mr. Boswell. Reclaiming my time. Hold on a second. I think 
you mentioned several times in your testimony that the 
organization prefers more humane methods of raising and 
slaughtering animals for consumption, so is it therefore true 
that the society has no problem with those who eat meat?
    Mr. Pacelle. Ninety-five percent of our members are meat 
eaters, Mr. Chairman, and----
    Mr. Boswell. So you have no problem with that?
    Mr. Pacelle. No. If you look at the----
    Mr. Boswell. Let me move on to another question because of 
time. Thank you very much.
    I was a little surprised in earlier testimonies regarding 
the amount of dollars accumulated by your organization and so a 
question comes to my mind, do you have sanctuaries scattered 
across the country? Do you have investments in those?
    Mr. Pacelle. Mr. Chairman, we have $5 and $10 and $15 and 
$20 donors, Americans from every State in the country, and as I 
mentioned, 10 million of them. They scrutinize all programs. 
All of our programs are advertised on our website and other 
materials. This is a program--Mr. Martosko and others are 
always fond of saying we don't care for animals. This is an 
entire guide about out animal shelter----
    Mr. Boswell. No, come on. The question is, do you have 
sanctuaries for animals across the country or in----
    Mr. Pacelle. We have three facilities that are entirely 
animal-related facilities. What we do is, we help shelters run 
better across the country. We don't run every shelter. There 
are thousands of them across the country.
    Mr. Boswell. But you do have shelters?
    Mr. Pacelle. We have several different kinds of shelters. 
We have an entire veterinary services program that goes into 
rural areas and last year handled 40,000 dogs and cats in the 
most rural areas in the country, just that one program, which 
is a small part of our program.
    Mr. Boswell. Okay. Last question and I will yield to Mr. 
Hayes. It has been called to my attention that the Animal 
Enterprise Terrorism Act in the last Congress that protected 
animal producers and families from extremist animal rights 
activists, your organization did not support that. Is that 
true?
    Mr. Pacelle. We have long opposed any illegal actions 
related to promoting animal protection. I have spoken on it 
publicly, and the people that have been condemned here today 
for going beyond the bounds of the law, we have joined in the 
course of criticizing. We were concerned about----
    Mr. Boswell. So you did support the----
    Mr. Pacelle. Because it had overreaching provisions that 
would have checked what we believe are protected speech 
activities.
    Mr. Boswell. So you did not support it then?
    Mr. Pacelle. Not in the form. We wanted to support it but 
we could not in the form that it was moved out of the 
committee. There was no markup on the bill. There was no 
hearing that allowed for any examination of those First 
Amendment questions.
    Mr. Boswell. Okay.
    Mr. Pacelle. But on our website is a strong statement 
against violent and illegal activities, and that is core to 
what we do.
    Mr. Boswell. I appreciate that.
    Mr. Hayes.
    Mr. Hayes. Thank you, Mr. Chairman. I will reserve my time. 
I don't have a question right now.
    Mr. Boswell. Mr. Kagen.
    Mr. Kagen. Thank you everyone for being here. With all this 
talk about food, I am getting kind of hungry, so I am going to 
just ask some yes or no questions. Mr. Pacelle, I would just 
like to know, do you live in the city or in the country? 
Because where I come from, if you come from the city you don't 
understand things are born and die every day. If you live in 
the country, you understand the whole circle of life. Do you 
live in the city?
    Mr. Pacelle. I live in a suburb.
    Mr. Kagen. And do you have pets in your house?
    Mr. Pacelle. Yes.
    Mr. Kagen. And so you are not eating your pets, you are not 
recommending people eat their pets. Am I correct?
    Mr. Pacelle. Correct.
    Mr. Kagen. And do you eat meat from chickens or eggs or 
cows?
    Mr. Pacelle. I am a vegetarian.
    Mr. Kagen. Okay. So you don't feel comfortable with the 
slaughtering of animals for consumption. Is that a fair 
statement?
    Mr. Pacelle. Excuse me?
    Mr. Kagen. You don't feel comfortable----
    Mr. Pacelle. Personally?
    Mr. Kagen. Correct.
    Mr. Pacelle. I choose not to do it, yes.
    Mr. Kagen. Okay. And I am a person that feels that how you 
spend your money either as an individual or as a family or a 
Congress is a reflection of your values so in terms of 
percentages of your organization's budget, what percent of your 
budget for the Humane Society do you spend for the direct care 
of animals?
    Mr. Pacelle. We have the highest rating on the charity 
navigator regulatory group. It is a 4-star rating.
    Mr. Kagen. I don't know what that regulatory group is but I 
am just looking for a number.
    Mr. Pacelle. We are not only a direct care group. Other 
groups would like us to spend all of our money caring for 
animals. We work on policy issues. We work on a wide range of 
other issues. We work with corporations----
    Mr. Kagen. I understand that, but what I am looking for is 
a number.
    Mr. Pacelle. I couldn't give you the percentage. We spend 
millions on direct care--millions. We take in--last year we had 
revenues from average Americans, not from the government, of 
$130 million. We spend millions on direct care of animals.
    Mr. Kagen. So that would be 1 percent, 2 percent?
    Mr. Pacelle. No. It depends which year. During Katrina----
    Mr. Kagen. Maybe you could study that and get information 
to me. I would be very interested in that.
    Mr. Pacelle. I would be happy to.
    Mr. Kagen. And that is the end of my time, so I yield back. 
Thank you.
    Mr. Boswell. Thank you very much.
    The gentleman from Iowa, Mr. King.
    Mr. King. Thank you, Mr. Chairman. I appreciate this 
hearing. I appreciate the testimony. This is a big issue facing 
all of us as we go forward to write this new farm bill.
    As I listen to this testimony, I direct my first question 
to Mr. Pacelle and that is, I would ask you if you could point 
out the statutes that you are referring to when you state that 
it is illegal to consume horseflesh in America.
    Mr. Pacelle. I don't believe I ever said that.
    Mr. King. You are on record as doing that and so I would 
ask----
    Mr. Pacelle. Well, I would like----
    Mr. King. --if you could provide--go ahead, Mr. Pacelle.
    Mr. Pacelle. No, I would like the context of the comment. 
It is often that people take comments out of context.
    Mr. King. Okay. This is a context of a complete article 
that you have posted on a website that has no source titled 
``King Watch'' and so it is some of the information that you 
provided in my district that is by my position false and so I 
want to give you an opportunity to speak to that, but what I 
will do is, since you don't know about the facts of this, I 
would ask you to submit to the record a correction of that if 
you had an opportunity to do some research, because I think it 
would be important for this panel to understand if there are 
any laws out there in local jurisdictions that you might have 
been referring to at the time that might have passed, you might 
have forgotten. But I think we have established that case.
    But I wanted to spend my time more----
    Mr. Pacelle. Well----
    Mr. King. Oh, no, I am completed.
    Mr. Martosko, your testimony here today was emphatic enough 
to I think bring everybody's attention to this issue and I 
would ask you, as you looked at the organizations that you 
named that you say are determined to eliminate the livestock 
production industry in this country, there are a lot of threats 
to the livestock industry. We have diseases, 1, regulations, 
another, environmental regulations in particular. You have 
activist groups that are involved in legislation and litigation 
and BSE in the case of livestock. In fact, 1 of the 
organizations states that swine is also a sort of BSE and I 
don't find that to be the case. But of all of the things that 
threaten livestock, what is the greatest risk to the livestock 
industry in your opinion?
    Mr. Martosko. In my opinion, the greatest risk right now is 
the possibility that the Congress will take seriously the 
advice of people who have sworn never to eat meat in crafting 
policy that will damage farming.
    Mr. King. And I would ask Mr. Gonzalez, what is your 
greatest concern to the overall livestock industry or 
particularly your own, which I have not had the opportunity to 
try either.
    Mr. Gonzalez. My greatest concern is that national market 
for meat and poultry products can break down if every city and 
town starts banning USDA-approved products.
    Mr. King. Thank you.
    Dr. Golab, at least the implication, if not the statement, 
has been introduced into this record or made that swine can 
carry BSE. Do you have any knowledge of that?
    Mr. Golab. I am not aware that there has been direct 
evidence of that up to this point in time.
    Mr. King. In fact, I would point out there is a British 
study that fed concentrated quantities of BSE-carrying material 
to swine back when they had their--are you familiar with that 
study or at least have you read of it?
    Mr. Golab. No, I have not seen that study.
    Mr. King. Any studies that I can find establish that there 
is no connection, no link, no transfer from swine to any other 
animal that might be subject to potentially BSE.
    I also wanted to make a point that was just interesting to 
me. Mr. Chairman, I think you might enjoy this. I look back on 
some of the things that pop up in my mind as we have these 
discussions about particularly animal husbandry and I am 
thinking about back in the 1970s when, and I am pulling this 
off of memory, but when John McKay was coaching the UCLA Bruins 
to national championships, they had a center there named Bill 
Walton, about 6"11, a red-haired vegetarian. He did a good job 
as an All American center in basketball and I believe they won 
at least 1 national championship under him. He went on to play 
for the Seattle Supersonics, by my recollection. But his legs 
wouldn't hold up and they went to specialist after specialist, 
and finally 1 particular doctor said to him, you need to 
increase your fluids, you can't play 4 or 5 games a week; 1 or 
2 was fine when you were in college but you are in the pros now 
and you need to increase your protein. So he recommended that 
Bill Walton increase his diet and take on beer and steak. Now, 
I am kind of in favor of those things and it is reported in the 
news that increasing that protein diet by going to that more 
protein concentrated including Pacific salmon was the first 
year that he had a good year and his legs held up. So I want to 
hold up the livestock industry and ensure that we can watch all 
kinds of competitive sports across America for a long time to 
come. I am interested in your industry and I am interested in 
our entertainment as well.
    Thank you, Mr. Chairman, and I would yield back.
    Mr. Boswell. Thank you, Mr. King.
    Just a question to the panel at large, and I would like to 
ask this. I know I have gotten contacts, a lot of efforts made 
throughout the industry whether it is all different types of 
agriculture production that you are putting a lot of effort 
into the science and study to try to give appreciation to the 
needs of animals and healthy environment and so on. Does 
anybody want to make any comment of what you are actually doing 
to try to meet the concerns that have been brought up to us 
today? Anybody?
    Mr. Pacelle. Mr. Chairman, there was just a study that came 
out of Iowa State University from, it was the Leopold Center 
and Iowa State study about sows in hoop barns as an alternative 
to gestation crates, and I believe that sort of work is 
happening around the country and it is showing that not only is 
it more humane for the animals but it is more efficient in 
terms of the productivity of the pigs and it is better from a 
manure management standpoint. All this talk, you know, I never 
bring up vegetarianism. The only thing I ever bring up 
vegetarianism is when people like Mr. Martosko and others try 
to caricature us. If you look at every policy reform that we 
advance, it is about making life a little better for creatures 
who are less powerful than we are, and this research validates 
that elemental notion that has always governed agriculture 
before it got so intensive: give an animal a little space, give 
an animal a little opportunity to turn around.
    Mr. Boswell. Any other members? Mr. Gregory?
    Mr. Gregory. Mr. Chairman----
    Mr. Boswell. Mr. Gregory, just in your area because I am 
acquainted with a gentleman named Van Zetten. Now, you may know 
him, Blair, but he tells me, knowing this meeting was coming up 
we had a discussion and talked about the efforts that are made 
in the egg-laying industry to provide what the consumer wants, 
and I would like for you to address that a little bit from your 
perspective. Is it across the industry this happening or is 
Blair the only 1 that is doing it?
    Mr. Gregory. First of all, he is a friend of yours and mine 
so I will tell him that you asked about him. Blair is in the 
egg products business and his customers are companies that buy 
eggs as an ingredient to make other food items. So the 
ingredient-buying food manufacturing business has expressed an 
interest in their suppliers meeting animal welfare guidelines 
nearly at the speed by which retail groceries have done so. Our 
program is open and available and voluntarily people come to it 
and so we have said to Blair, whenever your customers are ready 
for it, we are happy to work with you, and we think that will 
happen one day.
    Could I say one other thing, Mr. Chairman, while we have 
the opportunity? I am really proud of our egg industry because 
I really believe that we can find solutions to most anything. 
Most any challenge that we are faced with, we try to resolve, 
and we try to do it in a way that we are critical about what we 
do. We think it is an example of how we have done it in animal 
welfare as with the science-based committee of which Dr. Golab 
is one of those committee members. We are doing the same thing 
now to try to solve environmental problems. We have a 
scientific panel headed by Dr. Hong Wa Shin at Iowa State. But 
you had asked a question earlier about what is our greatest 
concern. I actually believe we can solve almost every problem 
there is in our business except the thing that I am most 
fearful of is animal activists. They literally want to put all 
of animal agriculture out of business and they have broken into 
our facilities. They have presented distorted video, and when 
they talk about this university or this retailer or so and so 
making a switch to cage-free eggs, please understand, our 
producers also produce cage-free eggs and organic eggs and so 
we are not disparaging to any kind of system. We think there 
are advantages and disadvantages to all. But most retailers, 
most university dining facilities, et cetera, don't willingly 
make those choices. They make those choices after having been 
intimidated by some of the animal activist groups that are in 
this room today. So make sure that you understand that this 
doesn't happen just out of the goodwill of the people to do 
this. It comes through intimidation of the marketplace.
    Thank you, Mr. Chairman.
    Mr. Pacelle. Mr. Chairman, can I answer that since it is 
kind of directed at us?
    Mr. Boswell. My time has run out. I will see if Mr. Hayes 
has a question and we will go from there.
    Mr. Hayes?
    Mr. Hayes. Thank you, Mr. Chairman.
    Dr. Golab, there are some implications beyond what we have 
talked about today. For example, in your medical veterinary 
opinion, ending the use of antibiotics in the livestock and 
poultry industry, how would such a ban, a blanket ban, affect 
the welfare of livestock on our farms and ranches and other 
associated issues?
    Ms. Golab. I am sorry. I didn't hear the last part of that.
    Mr. Hayes. Okay. Blanket ban on antibiotics in livestock, 
what other implication besides the livestock, include that as 
well, would be created by banning antibiotics in treating 
livestock?
    Ms. Golab. Well, if you take a look at what happened over 
in Europe when a certain proportion of antibiotics administered 
to livestock were prohibited, what you saw was that the amount 
of antibiotics administered to livestock for treatment purposes 
went up considerably. At the same time what you did not see is 
human resistance go down, which is what the primary concern has 
been with the use of antibiotics in livestock. What we see as 
veterinarians is increased disease, increased mortality. That 
is our principal concern at that point when you start 
eliminating preventive uses in particular.
    Mr. Hayes. I appreciate the comment and I think the point 
to be made is, some of these extreme positions that are held 
have not only unintended consequences but they are not 
victimless positions.
    Mr. Gonzalez, we applaud you for your efforts as a small 
businessman, immigrant to this country. You have raised some 
issues. Mr. Gregory has also raised issues. I think it is 
important because this Congress has passed the Animal 
Enterprise Terrorism Act, which if you think about, we should 
have never had to do because people should never have done the 
things that prompted us to have to do this, and I am 
particularly sensitive to you as an individual and a farmer, 
not an association. Are there other instances--and by the way, 
organizations are opposed and lobbied against the Animal 
Enterprise Terrorism Act, which is somewhat hypocritical with 
some of the statements that have been made here today. Have you 
had other experiences that you did not mention in your limited 
time for testimony that you think are valuable to this ongoing 
discussion?
    Mr. Gonzalez. Well, I want to support Mr. Gregory's 
statement in terms of changes being made in the marketplace as 
a result of intimidation and coercion. The particular case 
happening with the foie gras market is that all the restaurants 
are being blanketed with letters being sent by these 
organizations telling them that if they do not withdraw the 
product from their menus, they are going to be picketed, and 
obviously no restaurant, especially high-end restaurants, 
enjoys or wants their customers to be bothered with picketers 
on the outside and this is happening on a regular basis. 
Obviously, and this is probably the most important part of my 
testimony is, an invitation to these animal rights groups to 
tone down, to dial down their inflammatory rhetoric because 
nobody can tell when--it takes only one person to snap and it 
is very risky at the individual level, especially in our case 
of the foie gras producers that we are very clearly identified, 
and the way they portray us in the public eye is really putting 
our lives and our families at risk. So I made a respectful 
invitation to civility in this issue in order to tone down the 
rhetoric because it can have real consequences. The hate mail 
that I have received is regular. Just before the moment I was 
taking off to come to this meeting, I received one that you 
don't know who is going to be ticked off by this. I can go on 
and on but basically that is my main message.
    Mr. Hayes. I appreciate your presence here today.
    Mr. Gonzalez. Thank you.
    Mr. Hayes. The business of hate mail is extremely serious, 
but the fact that your restaurant was destroyed before it was 
ever completed kind of eliminated the picketing and I think it 
is important that the public knows that.
    Thank you, Mr. Chairman. I yield back.
    Mr. Boswell. Thank you.
    The chair recognizes the gentleman from Michigan, Mr. 
Walberg.
    Mr. Walberg. Thank you, Mr. Chairman.
    Let me ask Dr. Golab, as a person who works with animals 
and handles the science side of this issue, what does current 
science say about the treatment of sows, cows, cattle and other 
animals that are processed for consumption?
    Ms. Golab. Well, I think that the single biggest issue that 
we take home, and this is important to me because I concentrate 
across issues rather than concentrating on a particular 
species, basically what it comes down to is that every single 
production system has its advantages and disadvantages, and one 
of our biggest concerns I think as an association and as a 
profession is when you take those systems and you try and 
piecemeal them, and what I mean by that is, you take pieces of 
a particular system and you try and take actions on those 
pieces rather than considering the system as a whole. When you 
do that, you can create situations where you have changed a 
piece of a system but the rest of the production has not caught 
up with a change. For example, if you were to suddenly move 
from stall housing systems for gestating sows to group systems 
without consideration for the type of animal that you have in 
that system, the individuals that are managing those animals, 
how that animal is fed, you could actually make the welfare of 
that animal considerably worse rather than better, and that is 
pretty true across the system irrespective of whatever piece of 
it you select. And so our great wish is that these would be 
considered as comprehensive systems, and if changes need to be 
made, because the public is uncomfortable with something, do it 
in such a way that we phase in those changes and we make sure 
that we retain the advantages of the particular system that we 
are presently using but resolve its disadvantages.
    Mr. Walberg. How do we compare with other nations?
    Ms. Golab. I am sorry. What?
    Mr. Walberg. How do we compare with other nations in the 
handling, the processing, the care for animals?
    Ms. Golab. I think in terms of other nations, you have to 
look at it in the context of what the philosophy is in those 
nations. The fact of the matter is, the way that animals are 
viewed differs and it is also a fact that depending upon the 
amount of resources that you have, depends how much you can 
devote to things like animal welfare. Certainly I think in 
comparison with industrialized systems, we are certainly among 
the best, if not the best, at what we do. Certainly in less 
industrialized nations, they are doing the best they can, I 
think, but they have to devote their resources and allocate 
those as necessary, and right now they are not able to provide 
as much resource in terms of animal welfare.
    Mr. Walberg. I want to move on with a few more questions as 
long as time remains here, and specifically asking Mr. Gregory, 
during the depression my father made it through as a chicken 
farmer and learned the value of the egg and I watched him in my 
young life train us in the value of the egg whether we liked it 
or not and sometimes devouring raw eggs because he still 
thought they were good for him, he lived to a ripe old age as 
well. But what do you do specifically to maintain the welfare 
of your animals, and especially considering these animals are 
your livelihood and source of revenue in the industry that you 
represent? I guess I am looking for specifics that show your 
intentions and show the lengths you go.
    Mr. Gregory. Well, first of all, sir, I am not an egg 
producer. I am the President of the United Egg Producers 
Association. So I would speak for what we ask of our producers 
to do, and that is that we believe that egg production can be 
humanely produced in cages or in cage-free systems, organic 
systems, whatever it may be, providing that the farmer, the 
producer is following the recommendations of respected 
scientists that knows the well-being of the animals. We 
encourage all of our members to follow those kind of 
guidelines, and if they do, we believe that their animals will 
respond kindly to them as well.
    Mr. Walberg. Thank you.
    I yield back.
    Mr. Boswell. Mr. Goodlatte, do you have questions? Or Mr. 
King has one. I will let you get organized, whichever.
    Mr. Goodlatte. I just want to set the record straight on 
something that concerns me greatly because animal welfare 
obviously is a very important issue but also food safety is a 
very important issue as well and it was asserted by Mr. Pacelle 
in his testimony that there was a downer cow with BSE that got 
into our food supply. That is absolutely false, and one of the 
reasons why we have the system that we have to protect 
consumers is to make sure that kind of thing does not happen. 
In his testimony, he suggested that the BSE-positive cattle had 
entered the food supply. Due to the large number of overlapping 
firewalls, no cattle testing positive for BSE have entered the 
food supply in the United States. I think this small example 
justifies Mr. Stenholm's testimony regarding the scare tactics 
used by animal rights activists to invent facts to support 
their extreme agenda, and we will submit information from the 
USDA of every cow that has been discovered in the United States 
with BSE, and there are only a few of them, to show that in 
each instance, the cow did not enter the food supply. And of 
course, a further safety measure is that the specified risk 
material in these animals is removed prior to the processing 
anyway so that portion that would contain any such ingredient 
would not get in anyway. But notwithstanding that fact, there 
is no cow that has entered our food supply, and I just want to 
make sure that the record reflects that so that the American 
consumer knows that our beef supply is indeed safe.
    Mr. Boswell. Mr. Goodlatte, would you yield on that point?
    Mr. Goodlatte. I would be happy to yield.
    Mr. Boswell. I appreciate you making those comments. A 
concern of mine for some time of course has been the same thing 
that we have shared, you and I have talked about and others on 
the committee about BSE, et cetera, and all animals aren't the 
same, and concern has risen caused by some that the same thing 
applies to pork. That is just not so. Even efforts have been 
made to inject in tests, I am told, with BSE and it didn't 
take. And I want to ask for you to yield to make this comment. 
As a young person, I used to feed and haul a lot of hogs to 
market and I had somebody ask me one time well, what goes on 
when a pig or a hog just lays down, and some would call that a 
downed animal, and I said well, first off, you understand it 
has been proven they are very smart animals. They have an 
intellect that is unusual when it comes to animals. And to get 
my point across, I finally said I will tell you what, as a 
person that dealt with that, they protest, they lay down. And 
the person said, well, what do you do then, and I said well, we 
are trying to load them to go to market, I said, we put a 
person on each ear and the tail and give them encouragement and 
maybe they just stand up and go. Now, a little on the light 
side of it, I get down to the Kansas City market, I was just a 
young fellow at those times, didn't have anybody to help me but 
sometimes they decided to protest versus get off the top deck 
getting off the truck, and guess who had to go back up in there 
and get them out after healing them for 2 or 3 hours? I had a 
lot of involvement in that, but it is true, the hog, the swine, 
there has never, ever been a case of anything that would be 
remotely connected to BSE according to the many scientists and 
people that I have talked to and the people in the business. 
They are smart animals and they will do things like that to 
make you think they might be sick and they are not sick at all, 
and there is no evidence of it, and I may be overstretching the 
comment by saying they protest but that is exactly the way I 
see it to understand what they will do, having dealt with them 
over the times of my life.
    So thank you for yielding. I yield back.
    Mr. Goodlatte. Thank you, Mr. Chairman. I have got to leave 
and I just want to point out, Mr. Pacelle and I disagree on the 
whole downed animal issue and I understand his position. I 
think it is incorrect because I think you correctly note that 
there are a multitude of reasons why an animal might be downed, 
and there are provisions in the law to assure that an animal 
that is downed and may be diseased does not get into the food 
supply. An animal that might have a broken leg or something 
like that under the old provisions would still be suitable for 
slaughter. The disagreement we had was over whether it should 
be all-encompassing like that and that an animal that had those 
kind of problems would still get into the food supply and an 
animal that is diseased shouldn't get into the food supply 
under any circumstances whether it is downed or not. But the 
important thing here is to make very clear that in no instance 
of the very small number, I am not sure of the exact number, 
the 3, 4, 5 cows with BSE that have been found in the United 
States, none have entered the human food supply, and I just 
think it is important to set the record straight on that issue 
so that any coverage of this hearing makes it clear that the 
food supply, that the confidence of the American consumer in 
the safety of their beef is not any way impaired by that.
    I thank you very much for allowing me to make that one 
point.
    Mr. Boswell. Well, thank you, and I would say this in 
credit to Mr. Pacelle or anybody else in the room: If you have 
a concern about BSE or downed animals, we all do. Nobody 
objects to that. We all do, and I think that is across the 
country, so I think that is something we absolutely agree on 
but we just have to use the science and be factual about it.
    This pretty much wraps up this panel. Is there anybody that 
wants to have the last--Mr. King?
    Mr. King. Thank you, Mr. Chairman. I think it is important 
that we end this panel and this important section of this 
hearing on the right tone. So sometimes I listen to testimony, 
a question will pop up in my mind, and I think I have to have 
an answer to that. The question that popped up in my mind was, 
can a vegan or a vegetarian, can they eat a carnivore, and as I 
rolled that question around in my mind, the very agile staff 
that we have comes up with an answer for me that I would like 
to share with this committee, and the answer to that is yes, 
that there are five plants, at least that we know of, that are 
carnivores themselves and we are all familiar with the Venus 
Flytrap but if you go across the range from the consumption of 
a small insect whereas the largest one is a Raja pitcher plant, 
they can actually digest mice. So I would think there would be 
a way to get some retribution by making a salad out of these 
five carnivorous plants.
    But I also wanted to make a confession just to end up my 
time here and that is that I am also a vegetarian, that I eat 
recycled, concentrated, enhanced vegetables in the form of 
meat. Thank you, Mr. Chairman. I yield back.
    Mr. Boswell. I would like to close this panel at this time 
and thank every one of you for your patience and your 
contribution and the manner in which you presented things you 
feel strongly about. Thank you very much. We would excuse you 
at this time and ask the third and final panel to join us at 
the table. As you are getting situated, let me say to the third 
panel, thank you for your tolerance and your patience. You have 
waited a long time, and we don't want you to think you are any 
less important for being here because sometimes they even say 
the best is last. I don't know if that would be applicable here 
but nevertheless, we are pleased to have you here.
    By introduction, I would introduce Mr. Gene Baur, President 
of Farm Sanctuary, Watkins Glen, New York; Mr. Paxton Ramsey, 
Member, National Cattlemen's Beef Association, Devers, Texas; 
Ms. Barbara Determan, National Pork Producers Counsel, Early, 
Iowa, I know where that is; Ms. Leslie Vagneur Lange, National 
Director, American Quarter Horse Association from Greeley, 
Colorado; and Ms. Karen Jordan, DVM, Owner of Large Animal 
Veterinary Services on behalf of the National Milk Producers 
Federation, Siler City, North Carolina. Welcome to the panel.
    Mr. Baur, would you please share with us.

  STATEMENT OF GENE BAUR, PRESIDENT, FARM SANCTUARY, WATKINS 
                         GLEN, NEW YORK

    Mr. Baur. Mr. Chairman and members of the committee, thank 
you very much for holding this hearing to address farm animal 
welfare. It is an area of growing concern across our country 
and that is why we are seeing companies like Whole Foods 
develop more humane standards and where companies like 
Smithfield are starting to move away from certain practices 
that have been common. My name is Gene Baur. I am the Oresident 
and Cofounder of Farm Sanctuary. We operate two sanctuaries for 
farm animals, one in New York, one in California. I also have a 
master's degree on agricultural economics from Cornell 
University. So I have spent a fair bit of time taking care of 
animals. I have firsthand experience taking care of animals. 
Our shelters actually began when we would find living animals 
literally thrown in trashcans or living animals left on piles 
of dead animals behind stockyards.
    What has happened as we have pushed to produce more food 
more cheaply is that animals have become increasingly 
commodified. Animals are not being seen as living, feeling 
creatures and they are seen more as production units, and I am 
glad to hear that this assumption that if animals are 
productive, their welfare is good, is now being questioned. In 
fact, as Dr. Golab pointed out, there are competing interests 
on the farm. In some instances, animal welfare is actually in 
conflict with animal production. To produce egg-laying breeds 
of hens, hatcheries discard millions of unwanted male chicks 
every year. I have photos of baby chicks in dumpsters. I was at 
a hatchery once and watched living chicks put on an auger, sent 
into a manure spreader to be spread on the field as manure. As 
Dr. Temple Grandin has said, and she is one of the Nation's and 
in fact the world's leading livestock handling experts, bad has 
become normal oftentimes what happens on farms. I also want to 
just say that I don't believe that farmers are bad people. I 
don't believe that people who are throwing living animals in 
trashcans or confining them in these devices which I believe 
are inhumane, I don't believe that those individuals are cruel 
or intentionally causing harm to animals but I believe people 
have become jaded, and the industry has looked to maximize 
production and it has come at the expensive of animal welfare.
    Science has shown us what we can do but it has not asked 
the question, what we should do. Ethics is the issue we are 
dealing with here and that is why these issues are so 
emotional. Animal advocates are very upset about what they see 
happening to animals and I also understand that animal 
producers sometimes feel threatened and feel that they are 
being called cruel. That is not an easy thing to hear. But I 
would like to point out again that these are not people 
intentionally causing harm or wishing to cause harm. Nobody 
wants to cause harm. We all like to see ourselves as humane 
citizens. But what is happening on farms is, in the view of 
myself and Farm Sanctuary's members and most U.S. citizens, 
what is happening on farms is unacceptable. Most people do not 
feel that it is right to keep breeding pigs in 2-foot-wide 
crates for years. They feel that it is wrong to just throw 
living animals in trashcans or leave them on piles of dead 
animals.
    When we address how animals are raised, we need to look at 
the ethical issues. Science is important, that needs to be 
brought into the equation but ethics is also important, and 
that is one of the things that we haven't really heard very 
much about here. What is humane? What is appropriate? What do 
we stand for as a people and as a society? Do we think it is 
okay for living chicks to be thrown on an auger and dumped into 
a manure spreader to be spread on the field as manure? Do we 
think that is appropriate? And I would also just say from the 
legal standpoint, farm animals are excluded from the Federal 
Animal Welfare Act and they are also excluded from many state 
anticruelty laws. So this idea of throwing these live animals 
away could in some cases be considered legal, and in fact, we 
had a court case in New Jersey where there were a couple of 
live hens that were thrown into a trashcan as manure. The egg 
industry's lawyer actually argued in court that legally the 
birds could be treated like manure. The judge said isn't there 
a difference between live birds and manure? And the attorney 
said no, Your Honor.
    So it has gotten to such a point that cruelty is defended 
and I think this hearing will hopefully shed some light on some 
of the real conditions and I really appreciate the opportunity 
to be here. Thank you.
    [The prepared statement of Mr. Baur appears at the 
conclusion of the hearing:]
    Mr. Boswell. Thank you. We would now recognize Mr. Ramsey.

 STATEMENT OF PAXTON RAMSEY, MEMBER, NATIONAL CATTLEMEN'S BEEF 
                   ASSOCIATION, DEVERS, TEXAS

    Mr. Ramsey. Thank you. Good morning, Mr. Chairman and 
members of the committee. My name is Paxton Ramsey and I am the 
4th of 5 generations on my family's ranch in south Texas where 
we raise cattle and horses, and I am honored to be here this 
morning on behalf of the American rancher to confirm the 
importance of animal welfare in our industry.
    Each morning on ranches across the country, over a cup of 
coffee in the barn, cowboys are feeding, grooming, shoeing 
horses, putting orphaned calves on a nurse cow as they meet and 
prioritize their duties of the day. A plan is devised and each 
man departs for the day in a dirty pickup with a pair of 
fencing pliers, a sandwich, medicine and a fresh horse in his 
trailer. Our goal is to as thorough and efficient as we can in 
checking and handling our portion of the livestock with animal 
welfare and profitability in mind. This includes providing 
adequate water, minerals and vitamins based on age, condition, 
sex and time of year. A man once told me that ranching is an 
art and should be handled in a business-like way. Poorly tended 
animals will cause a ranch to go under, the same ranch the 
world is counting on for food.
    The longstanding commitment to the health and welfare of 
our animals is probably not something we talk about enough in 
public because it is not something that we have to make a 
conscious decision to pursue. Good care of our animals is 
second nature to us and it is not something we do because it is 
popular or newsworthy. We do it because these animals depend on 
us and we cannot fail them.
    If I may, allow me to take you a few miles off the highway 
where a young man has been working since before we all ate 
breakfast to locate a sick calf. He and his horse have just 
exhibited a harmony beyond words in roping this calf and giving 
the appropriate shots needed to prevent the signs of pneumonia 
from spreading. Picture the heat, the thorns, the dust, the 
potholes and many more pitfalls that this team has endured to 
get through rough country just to doctor one little old calf 
that neither you nor I will ever know about if he dies. Is it 
really worth all the work, risk and danger? What if the market 
value of that calf is at an all-time low? It is worth doing 
when no one will ever know if he turns his back and rides away? 
Yes, sir, it is. Do you know why? Because that young man 
promised his forefathers and his children that he would. Being 
a good steward is the job that he asked for and his integrity 
and the welfare of his animals are not to be compromised.
    Stewardship requires work. The cattle and horses of our 
family ranch count on us to adequately care for them as much or 
more than we count on them to take care of us. It is not only 
our moral obligation, it has also proven to be a more 
profitable way of business. We have learned through years of 
experience that if you take care of your pennies, your dollars 
will take care of themselves. A stressed animal that goes to 
market produces a substandard product. An animal that was 
raised without proper management practices will not produce 
high-quality meat.
    As a member of the National Cattlemen's Beef Association 
and the Texas and Southwestern Cattle Raisers Association, I 
rely on them to help ensure that animal welfare is taken 
seriously throughout our industry. NCBA has worked with USDA, 
land grant universities, county agents, vets, animal scientists 
and cowboys to determine the effects of handling and care on 
livestock. That knowledge has helped the industry to develop 
new processes, procedures and equipment that improve animal 
welfare. For example, NCBA has long taken these principles and 
practices from the grass roots level and added the expertise of 
many associated entities to develop producer-led initiatives 
such as the Beef Quality Assurance Program and the cattle 
industry's guidelines for the care and handling of cattle.
    Created in 1987, BQA provides guidelines for livestock care 
and handling and nutrition and veterinary treatment. Emphasis 
on education helps producers identify the day-to-day ranch 
management practices that influence the production of safe, 
wholesome beef. BQA incorporates current FDA, EPA and USDA 
regulations as well as HACCP principles. Today BQA influences 
more than 90 percent of U.S. cattle.
    The BQA producer code of cattle care gives the following 
guidelines for cattle producers: provide adequate food, water 
and care to protect cattle health and well-being; provide 
disease prevention practices to protect the health of the herd 
including access to veterinary care; provide facilities that 
allow safe, humane and effective movement and/or restraint of 
livestock; use humane methods to euthanize sick or injured 
livestock and dispose of them properly; provide personnel with 
training to properly handle and care for cattle; make timely 
observations of livestock to ensure basic needs are being met; 
provide transportation that avoids undue stress caused by 
overcrowding, excess time in transit or improper handling 
during loading and unloading; keep updated on advancements and 
changes in the industry to make decisions based on sound 
production practices and consideration to animal well-being;, 
and finally, not to tolerate people or practices which 
willfully mistreat animals.
    In addition, the cattle industry's guidelines for care and 
handling cattle, which were developed in 2003, are a 
comprehensive set of the best practices for every aspect of the 
cattle production. Some of the best practices include: low-
stress cattle handling; effective shelter and housing; careful 
loading and transporting; and tips on reducing heat stress.
    As you can see, ladies and gentlemen, animal welfare is 
given great consideration every day in my business. Not only is 
proper care and handling something we practice, it is also 
regulated by state and federal law. As such, we look forward to 
working with Congress to ensure that state and federal agencies 
such as APHIS have all the resources they need for the 
inspection of regulated facilities that handle livestock. In 
addition, we hope to work with you to continue efforts that 
ensure we have plenty of enthusiastic and talented vets 
entering large-animal practices.
    In closing, years of practical experience have shaped the 
practices we as cattlemen use to care for our livestock. It is 
not just something we talk about, it is something we do every 
day. I assure you, no one looks out for the welfare of our 
animals more than we do because it is an integral part of 
ensuring the industry remains as healthy and as vibrant as our 
cattle. On behalf of NCBA and the American rancher, I 
appreciate your time here today.
    [The prepared statement of Mr. Ramsey appears at the 
conclusion of the hearing:]
    Mr. Boswell. Thank you, Mr. Ramsey.
    The chair recognizes Ms. Determan.

STATEMENT OF BARBARA DETERMAN, NATIONAL PORK PRODUCERS COUNCIL, 
                          EARLY, IOWA

    Ms. Determan. Good morning, Chairman Boswell and Ranking 
Member Hayes and other members of the subcommittee. I am Barb 
Determan. I am a 4th-generation pork producer from Early, Iowa, 
and I am a Past President of the National Pork Producers 
Council.
    First, I want to make a very clear, definitive statement to 
this committee and to Congress. American's pork producers 
recognize our moral obligation to provide for the well-being of 
our animals and we raise our pigs in a humane, compassionate 
and socially responsible manner. Any production practice that 
falls short of this high performance standard is totally 
unacceptable and will not be tolerated by our industry. In 
addition to our moral obligation, pork producers' livelihoods 
depend on the well-being and performance of their pigs. Through 
my own farm experiences and the countless number of people that 
I have met through my work and travels as an NPPC officer, I 
have learned that one thing is very constant among pork 
producers. We are in this business because we love working with 
pigs. None of us would do anything that would be knowingly 
harmful to the pigs' well-being but remember, these are food 
animals, not household pets.
    Today I will tell you how American's pork producers are 
addressing the well-being of our pigs through compassionate 
swine care, humane sow housing, responsible use of antibiotics 
and safe transportation. In 1989, pork producers established 
the Pork Quality Assurance, PQA, food safety program. Major 
meatpackers require our producers to have PQA certification. 
While producers have long used humane well-being practices, the 
industry further developed animal care guidelines in the early 
1990s and we made them into standards as new knowledge about 
animal care became available. More recently, the industry 
developed and implemented the Trucker Quality Assurance Program 
for those who handle and transport market hogs. The majority of 
packing plants also require truckers to be TQA certified. All 
three of these efforts were among the first of their kind in 
the livestock industry and were developed in cooperation with 
animal well-being experts from land grant universities, 
practicing veterinarians and other scientists.
    In 2002, producers endorsed an updated U.S. producer code 
of practice that calls for us to: provide facilities to protect 
and shelter our pigs; provide personnel with training for 
proper care of our pigs with zero tolerance for mistreatment of 
our pigs in their care; provide access to good quality water, 
nutritionally balanced diets; provide prompt veterinary medical 
care when required; and maintain adequate biosecurity to 
protect the health of our herd.
    In 2003, the industry updated its Swine Care Handbook which 
is the foundation for the Swine Welfare Assurance Program, 
called SWAP. It is an educational and assessment program that 
looks at 10 specific areas of animal care. Now the principles 
of SWAP are in the industry's ongoing and groundbreaking Pork 
Quality Assurance Plus Program which does include 
certification, on-farm assessments and third-party audits. 
There was no pressure to implement these programs other than 
our belief to do the right thing. All our animals, even those 
raised for food, deserve to be provided with care and decency, 
and we do that 24 hours a day, 7 days a week, 365 days a year.
    With regard to sow housing, the pork industry agrees with 
the position of the American Veterinary Medical Association, 
the American Association of Swine Veterinarians and other 
organizations, which recognize gestation stalls and group 
housing systems as appropriate for providing for the well-being 
of sows during pregnancy. Science and practice suggest that 
both individual and group housing have advantages and 
disadvantages. That is why we strongly believe the skill of the 
individual taking care of the pigs is the ultimate determining 
fact in the well-being of sows and market pigs. Healthy, well-
cared-for animals are raised in almost any system as long as 
the care of the animal is the top priority. Science and farmer 
experience also tell us that mandating any one type of sow 
housing or simply changing for the sake of change is not 
necessarily in the best interest of the pig.
    We do not believe Congress has the understanding or the 
expertise to decide on farm practices for our production. We 
also believe that includes the use of antibiotics to treat 
injured or sick pigs and that prevent wound infections, pain 
and suffering. Pork producers use antibiotics in consultation 
with their veterinarian in a responsible manner. In fact, the 
industry created the Take Care, Use Antibiotics Responsibly 
program to enhance producers' awareness of antibiotic use. 
Banning antibiotics because of some misconception or outdated 
information related to the antibiotic resistance in humans will 
only jeopardize the well-being of our animals. It is clear that 
antibiotic resistance in humans would not end if antibiotic use 
on farms were eliminated. One peer-reviewed study estimates 
that 96 percent of antibiotic resistance in humans is due to 
the human use of antibiotic and not from the consumption of 
meet products. In addition, the FDA has a rigorous science-
based approval process for animal antibiotics that addresses 
human health concerns and sets withdrawal times for each 
antibiotic use.
    I am proud to be part of an industry that on our own has 
developed and implemented world-class programs that help pork 
producers raise and care for their animals in a humane, 
compassionate and socially responsible manner. We oppose 
legislation that dictates our production practices or that bans 
products and practices that help us care for our pigs and we 
oppose including an animal welfare title in the farm bill.
    Again, thank you for letting me testify on behalf of the 
Nation's pork producers and I will be happy to answer any 
questions at the appropriate time.
    [The prepared statement of Ms. Determan appears at the 
conclusion of the hearing:]
    Mr. Boswell. Thank you very much.
    Ms. Lange.

STATEMENT OF LESLIE VAGNEUR LANGE, NATIONAL DIRECTOR, AMERICAN 
                   QUARTER HORSE ASSOCIATION

    Ms. Lange. Good afternoon, Mr. Chairman and members of the 
subcommittee. My name is Leslie Lange. I am the National 
Director for the American Quarter Horse Association from my 
home State of Colorado. It is AQHA's hope that by providing 
this testimony, commonsense legislation can be addressed that 
will not adversely affect horse owners, horses or the industry 
at large.
    There are many examples of people who believe they are 
working for positive changes yet they are in fact irreparably 
damaging the agricultural industry. Threats received by 
Colorado's own beloved, century-old National Western Stock Show 
and Rodeo and protests at rodeos across the country by militant 
animal rights groups are just a few examples.
    Today I want to focus on what has occurred recently as a 
result of the closure of some horse processing facilities in 
the United States. The American Quarter Horse Association 
represents a broad base of members who are involved in many 
different areas of the industry. The primary concern of these 
members, my fellow directors and staff is ensuring that the 
welfare of the horse is paramount to all other considerations. 
I would like to have added to the record a copy of AQHA's 
rulebook that addresses humane treatment. I want the record to 
reflect that AQHA does not favor slaughter as a way of dealing 
with America's unwanted horses. However, the association's 
board does recognize that the processing of unwanted horses is 
currently a necessary aspect of the equine industry. Some have 
publicly mischaracterized AQHA as not being for the horse and 
that could not be further from the truth. If it weren't for the 
horse, AQHA would not exist.
    Additionally, it has been improperly stated that the 
majority of horses that go to slaughter are American Quarter 
Horses. To be accurate, the processing facilities do not know 
the breeds of these horses.
    As a breed registry, the association's primary role is to 
record the pedigrees of American quarter horses. It is not 
AQHA's role to restrict a breeder's right to breed their 
horses. In fact, courts have ruled that in certain cases, it is 
a restraint of trade for the association to do so.
    The three areas I would like to comment on are long-term 
care for horses, funding for enforcement and an equine welfare 
system and how the industry is handling the unwanted-horse 
issue without the government reacting to animal rights 
activists or celebrities who are out of touch.
    Earlier this year when the horse processing facilities were 
closed, AQHA warned that if this were to occur without 
addressing long-term-care solutions, some horses would 
needlessly suffer. Their owners would not have a way to sell a 
horse they no longer wanted nor could afford to keep. An 
unwanted horse is one that has become a burden rather than a 
joy to its owner. Examples of these problems, AQHA took a call 
from an irate salebarn owner who found himself in possession of 
a handful of horses that the owner had simply abandoned because 
he couldn't even get the consignment fee for them in the 
auction. The association received a call from a feed store in 
Mississippi that was approached to help feed 70 horses that had 
been abandoned. An AQHA member from Montana mailed pictures of 
a 3-year-old gelding that died of starvation because its owner 
simply walked away. And in my home State of Colorado, 23 horses 
were locked in a barn and abandoned. The owner told authorities 
he could no longer afford to take care of these horses because 
of rising prices and plummeting value.
    Certainly, all owners should care for their animals 
properly. Unfortunately, not all do because they can no longer 
afford to. While many business owners and animal lovers have a 
soft spot for these abandoned horses now, at some point the 
gravy train is going to run dry and horses are already becoming 
victims.
    Activists and misguided legislation circulating around 
Washington relating to horse slaughter are having a powerful 
impact on the very animal meant to be protected. Whether or not 
we want to admit it, economics comes into play. The slaughter 
market determines the base or floor price for horses. When that 
bottom falls out or is removed, as it has been, it simply 
stands to reason that it will adversely affect the horse 
industry and the horses themselves.
    I make my living off the horse industry, and even at the 
upper end where I train and compete, owners are beginning to 
feel the effects of the bottoming of the horse industry. When 
the floor is removed, the entire industry begins to fall, and 
as we are seeing, values are beginning to decline.
    I would like to add to the record the American Horse 
Council's Economic Impact of the Horse Industry.
    The other economic issue deals with how are we going to 
care for 90,000 horses each year entering the equine welfare 
system. By most assessments, it would take an additional 2,700 
bona fide rescue facilities. By providing only the most basic 
care of hay and water, it will cost $171 million to care for 
90,000 unwanted horses displaced as a result of banning horse 
slaughter in the United States.
    Staff at AQHA called the hometowns of each of the members 
of this subcommittee. Of the 18 municipalities contacted, only 
one had the facilities to take in displaced horses. We have a 
long way to go.
    As a result of the closing of the Nation's processing 
facilities, today there are more horses on the market causing 
the value to plunge. Low prices have consequences, and while 
slaughter is not pretty, it does provide a humane, economical 
way for an owner to relinquish an unwanted horse.
    The option of sending a horse for processing must remain 
available to those who need it so long as measures ensuring 
humane transportation and treatment of horses are in place. 
Today those rules exist, and in the United States we protect 
the dignity of even the most unwanted or unusable horse. Once 
an animal is taken outside the borders, we lose those standards 
of care.
    The good news is, the horse industry is addressing the 
issue without government intervention through the Unwanted 
Horse Coalition. The Unwanted Horse Coalition, which was 
established in 2005, is working to eliminate America's unwanted 
horses. Their goal is not to pay for the care of unwanted 
horses but to reduce their number and improve their welfare. 
Through education and hard work, we are addressing this problem 
without creating inadvertent problems like this ban has.
    Ladies and gentlemen of this subcommittee, I love horses 
and I love how good the agriculture industry has been to me. If 
you are serious about helping horses and the good people who 
make their livelihood off the livestock industry, I hope you 
will do what is right to end this problem. It is not about 
passing laws that have unintended consequences; it is about 
being realistic, doing what is right for horses and feasible 
for taxpayers.
    Thank you for your time today.
    [The prepared statement of Ms. Lange appears at the 
conclusion of the hearing:]
    Mr. Boswell. Thank you for your testimony.
    Ms. Jordan.

STATEMENT OF KAREN JORDAN, DVM, OWNER, LARGE ANIMAL VETERINARY 
  SERVICES, ON BEHALF OF NATIONAL MILK PRODUCERS FEDERATION, 
                   SILER CITY, NORTH CAROLINA

    Ms. Jordan. Thank you for inviting the National Milk 
Producers Federation to testify before you today. My name is 
Karen Jordan and I am a practicing large-animal veterinarian 
from Siler City, North Carolina. My husband and I also own 
Brush Creek Swiss Farms, where we milk 75 registered Brown 
Swiss and raise about 70 replacement heifers. Currently I serve 
as Vice-Chair of the Animal Health Committee of National Milk 
and Chair of the Cattle Health Committee of the National 
Institution for Animal Agriculture.
    My testimony today focuses on the animal care that our U.S. 
dairy farmers provide every day for their animals and the 
incorporation of new technology as it becomes available to 
improve the welfare of our animals. Dairy farmers know that 
improving animal welfare pays back on a daily basis. Every day, 
regardless of the size of the operation, dairy farmers invest 
time and money in providing the best health care, housing and 
nutrition that is available. While specific animal care 
practices vary depending on the geographic region and climate, 
proper animal care is practiced throughout the industry.
    Simply put, what is good for our cows is good for our 
businesses. In 2002, National Milk Producers and the Milk and 
Dairy Beef Quality Assurance Center came together to develop 
the Caring for Dairy Animals Technical Reference Guide. This is 
a comprehensive set of dairy animal well-being guidelines that 
covers all aspects of dairy animal care. The Milk and Dairy 
Beef Quality Assurance Center also offers a third-party 
auditing component of the program and many dairy farmers choose 
to go through own farm audit to verify their best management 
practices.
    These guidelines have been recognized by the Food Marketing 
Institute and the National Council of Chain Restaurants. The 
guidelines were developed using the most current animal well-
being research and these guidelines have been extensively 
reviewed by dairy animal welfare experts and are endorsed by 
the American Association of Bovine Practitioners. At the 
inception of the guidelines, a strong promotional effort led by 
National Milk was initiated and these guidelines were widely 
distributed to dairy farmers, veterinarians, dairy 
nutritionists, milk cooperative field staff and others who 
interact with dairy farmers on a daily basis.
    The dairy industry has not only addressed animal care 
standards for the milking cow but also for dairy calves, 
replacement heifers and for veal calves. Farmers that raise 
replacement heifers utilize the Raising Quality Replacement 
Heifers guidelines. The American Veal Association has developed 
the Veal Quality Assurance Program, which provides stringent 
guidelines for animal well-being and care and requires multiple 
yearly onsite visits from an accredited and licensed 
veterinarian to document compliance.
    Several years ago, the New Jersey Department of Agriculture 
was mandated to develop and adopt regulations governing the 
minimum standards for the humane treatment of domestic 
livestock. The same Caring for Dairy Animals Technical 
Reference Guide was a set of dairy animal welfare guidelines 
that the State of New Jersey used to develop the dairy 
component of their standards.
    There are also other dairy animal welfare verification 
programs that states or dairy organizations have developed. For 
example, the States of California and New York have quality 
assurance programs that have a dairy animal welfare component 
to them.
    In addition to animal care guidelines, the dairy industry 
also supports new research in the animal well-being area. As 
new appropriate technologies and/or animal care practices 
arise, they are recommended to producers, and in the past 
decade animal welfare research has lead to many improvements in 
cow comfort. Because of this research, farmers have applied the 
improvements gained from the research into their management 
practices. Today many farmers provide their cows with fans and 
sprinkler systems to keep them cool and comfortable. Farmers 
also install rubber mats for their cows to stand on as well as 
clean, comfortable bedding such as sand and rubber-filled 
mattresses for their cows to lie on. Routine herd health 
programs are also a part of all dairy farmers' daily 
management.
    Through a combination of modern production technologies and 
experienced gained across generations of dairying, today's milk 
producers know how to maximize cow comfort and well-being in 
order to achieve the record levels of milk production that you 
are seeing today. National Milk Producers continues to work 
with other dairy organizations to promote the animal care 
guidelines to our dairy producers.
    As you can see, U.S. dairy farmers have been very involved 
in the welfare of their animals and dairy farmers want to 
provide the utmost care for their animals. Because of all the 
industry efforts, we respectfully request that you oppose any 
proposed farm animal welfare legislation as part of the 2007 
Farm Bill. Dairy farmers' livelihood is already based on well-
cared-for and healthy animals to produce wholesome, nutritious 
dairy products.
    Thank you for providing me with the opportunity to testify 
on behalf of the National Milk Producers Federation, and I have 
a copy of the guidelines that I have referred to during this 
testimony that I would like for this to be made part of the 
record.
    [The prepared statement of Ms. Jordan appears at the 
conclusion of the hearing:]
    Mr. Boswell. Well, thank you, Ms. Jordan, for an excellent 
testimony.
    We will move to our questions now. I guess it is a learning 
process for me, but Mr. Baur, if I could start off with, is 
Farm Sanctuary an animal welfare or animal rights organization?
    Mr. Baur. We are both. We encourage people to consider 
eating in a compassionate way, which would include a vegan 
lifestyle, but we also work to stop cruelty so we recognize 
that each person has to make their own food choices though.
    Mr. Boswell. Okay. I am trying to understand your goals. Is 
it to end animal agriculture?
    Mr. Baur. No, our goals are to prevent suffering, to 
prevent cruelty. We are not anti-farmer; we are anti-cruelty.
    Mr. Boswell. So you just said you are a vegetarian or a----
    Mr. Baur. I am a vegan, yes, but we recognize that each 
person has to make their own choice in terms of what they eat.
    Mr. Boswell. Out of curiosity, and I am not picking on you, 
but would you like to see an end to raising and the slaughter 
of animals for food?
    Mr. Baur. Personally, I think it is a violent--killing 
animals is a bloody, violent thing and I frankly feel kind of 
bad for those who have to do it, so in my ideal world and what 
I dream about, yes, that is what I would like to see. I also 
recognize that I am individual with my own dreams and each of 
us have our own dreams but we as a society need to decide what 
is appropriate, and I think that is where we are currently not 
acting appropriately. We are doing some very bad things to 
animals.
    Mr. Boswell. I am curious about, if I could, where does 
Farm Sanctuary gets its funding. Do you get it from HSUS? Do 
you receive funding from them?
    Mr. Baur. No, the vast majority of our support comes from 
our members. We have 150,000 supporters across the U.S.
    Mr. Boswell. But back to my question, do you get any 
funding from HSUS?
    Mr. Baur. We were involved with a rescue of chickens from 
Katrina and we did get a donation from HSUS for that particular 
rescue but that was a one-time thing and----
    Mr. Boswell. But how about other help? For example, PETA, 
do you get any----
    Mr. Baur. No, we have never gotten any funding from PETA.
    Mr. Boswell. Well, thank you very much.
    I would like to address this question to some of the 
others. I am aware that a lot of quality assurance activity 
goes on within your industries, beef, pork, dairy, I think it 
does with horses as well so would you just, to enlighten us a 
little bit, give me just a little bit of what you are doing to 
try to put this forward.
    Mr. Ramsey. If I may, Mr. Chairman, I think it varies from 
region to region as each ranch requires certain activity to 
ensure welfare of animals. I know that NCBA has worked hard to 
establish its Beef Quality Assurance Program and it is a 
recommended procedure to all of their members. However, our 
ranch personally, for example, we actually have to go above and 
beyond that to some degree.
    Mr. Boswell. But you have an education program, if I 
remember.
    Mr. Ramsey. Yes, sir.
    Mr. Boswell. I think it is very good. I am going to give 
you a chance to tell the folks about that.
    Mr. Ramsey. Yes, sir. I think it promotes an activity among 
all ranches to be in touch with their veterinarians, to be in 
touch with what is a good vaccine program to prevent any 
unnecessary sickness or death. But it is very----
    Mr. Boswell. Barbara?
    Ms. Determan. The Pork Quality Assurance Program, like we 
said, has been around since 1989 and anybody who handles hogs, 
and especially on our farm, goes through PQA training, even 
down to my teenage daughter has gone through Pork Quality 
Assurance training. And what that is, is an education process 
with a certified veterinarian who walks us through the 
education process of how to handle the pigs. The PQA Plus 
Program that is going to be introduced this year to producers 
now includes the animal welfare component to it too which will 
have an assessment as well as third-party audit within that. 
Most of the major packers in the pork industry require 
producers to be PQA certified.
    Mr. Boswell. Ms. Jordan or Ms. Lange, either one, your 
quality programs?
    Ms. Jordan. For the dairy industry, our Caring for Dairy 
Animals Technical Reference Guide has been well circulated 
through our different dairy magazines. It has been made 
available to the field staff for different member cooperatives 
for distribution to our dairy farmers.
    Mr. Boswell. Thank you.
    Ms. Lange. In the equine industry, it is obvious that we 
don't consume a large amount of horsemeat in the United States 
but the American Quarter Horse Association does have over $6 
million in contributions in equine research for the health and 
well-being of the equine animal, and as I spoke in my 
testimony, the Unwanted Horse Coalition is working to provide a 
place other than slaughter for horses that are unwanted or 
unusable. We have brochures that we have put out addressing 
those unwanted-horse issues and what the options are besides 
slaughter to try to address the unwanted-horse issue.
    Mr. Boswell. Thank you very well.
    Mr. Hayes.
    Mr. Hayes. Thank you, Mr. Chairman.
    Ms. Jordan, would you outline briefly the guidelines 
employed by veal raisers to improve and to ensure animal care?
    Ms. Jordan. I am sorry. I would have to get back to you on 
that. I don't have access to that document.
    Mr. Hayes. How about your personal experience? That is all 
I am asking about.
    Ms. Jordan. Well, personal experience, our book has--we 
usually keep them on the farm for 7 to 10 days and then they 
are usually sold locally and they are handled just like as if 
they were a heifer calf, and we are trying to get them started 
out just as well as any of our heifer calves are started out.
    Mr. Hayes. Is Johnson's still in Siler City?
    Mr. Jordan. Johnson's Restaurant?
    Mr. Hayes. Yes.
    Ms. Jordan. Yes, sir, best hamburgers.
    Mr. Hayes. We could convert some vegans there, I believe.
    Ms. Determan, thank you for coming by yesterday. Talk 
briefly about the downers and the ban that is proposed under 
H.R. 661. What impact would that have and is that practical and 
realistic?
    Ms. Determan. Well, as Chairman Boswell explained, pigs 
sometimes just protest, and so the pigs when we are unloading 
them at the slaughter plant, sometimes we have--they just get 
stubborn and especially if it is warm, they will just lay down, 
and that could possibly eliminate a lot of pigs from our supply 
because this is just a trait of theirs. By eliminating pigs who 
are perfectly healthy and pose no threat to the food supply 
would be a huge impact on our industry. But more importantly, 
they are safe and they are good, quality product to go to 
consumers who need to feed their families.
    Mr. Hayes. Mr. Baur, do you think Roe v. Wade should be 
overturned?
    Mr. Baur. I haven't honestly given it a lot of thought. I 
mean, we are here to talk about farm animals. Well, Roe v. 
Wade, I mean, that is--I honestly don't have a position on it.
    Mr. Hayes. Okay. Mr. Chairman, thank you. A couple things. 
I would ask unanimous consent that Mr. Stenholm's May 23 letter 
to Mr. Pacelle be entered into the record today, and I would 
also from personal experience like to add to the testimony that 
as a great fan, my wife and I of PBR, the bulls are treated 
much better than the cowboys, exemplary across the board. Also, 
the circus, as a grandfather, I have never seen better care for 
animals and in the quarter horse industry, the dairy farmers, 
poultry--Mama, don't let your baby grow up to be a cowboy. You 
did a great job, Mr. Ramsey. They are doing a good job.
    So thank you for the hearing, and I will yield my time in 
case some other questions need to be asked. You need to think 
about that Roe v. Wade, Mr. Baur. It is interesting, given your 
position.
    Mr. Boswell. Well, thank you, Mr. Hayes.
    Mr. King.
    Mr. King. Thank you, Mr. Chairman, and I will move quickly.
    Ms. Determan, when I was a young boy, we farrowed pigs with 
wooden panels in the barn, pitched straw over them and bedded 
the sows in that. They had the pigs, got up, laid back down, 
laid on them, sometimes they ate them. How many pigs did we 
wean per litter then and compared to 20 years ago when we came 
with farrowing crates compared to today with gestation crates? 
What has happened to the survivability of those pigs?
    Ms. Determan. Survivability of the pigs has greatly 
increased, first of all. Second of all, I had the same 
experience. I grew up on a pig farm too so I had the same 
experience of having those pigs get laid on and other things 
happened. But mainly the survivability has increased from 
anywhere from 2 to 3 pigs per litter, and that is per litter, 
not yearlong but per litter. So it has been a very-- I have had 
experience both ways and I will tell you that the individual 
care that I can give to each animal in a stall is extremely 
important for me as a producer to be able to take care of each 
animal individually, not only care-wise but also make sure they 
get the right feed and the whole works.
    Mr. King. But today you see a wean average approaching 10 
pigs per litter?
    Ms. Determan. Yes.
    Mr. King. And when I was a little boy, what was that 
number, what would you--just a guess.
    Ms. Determan. Less than seven. Now is 10.
    Mr. King. That is about how many pigs' lives one would 
sacrifice if they went back to a more natural way of doing 
this.
    I yield back the balance of my time. I thank the chairman 
and thank the witnesses.
    Mr. Boswell. I understand Mr. Walberg has no questions.
    Mr. Hayes, we are going to ask you if you have any closing 
remarks before we wrap up here. Seeing none at this moment, I 
would like to say this for my part: excellent panel. Thank you 
very much, Mr. Baur, Mr. Ramsey, Ms. Determan, Ms. Lange, Ms. 
Jordan, I appreciate you taking the time and coming and sharing 
with us and helping us discuss this issue of animal welfare. I 
think overall as we think of what has happened here these last 
3 hours or so, that it has been an open opportunity to put 
things under glass, if you will, out in daylight and talk about 
it. One thing I have learned and appreciate very much is that 
folks are concerned about animal welfare, they are serious 
about it, but I also learned very much that a lot is being done 
in the industry to address this, and I want you to know that we 
appreciate that.
    As a participant myself, I have grown up trying to do that 
so I think that you are doing the right thing and we want you 
to know we appreciate it. I am concerned particularly about the 
downed animal situation that some misinformation is out there 
and we have to make sure that is corrected. I rely on a lot of 
you in the industry and those who practice medicine in the 
industry to help us out on that because I think it would be 
devastating to the pork industry, for example, if they would be 
falsely accused of sick animals when they are not sick animals. 
I have got too much grease on me from the past. I know better. 
So I would trust that we would work together on that particular 
point because it seems to keep coming back from time to time 
and I think it is an education process, so I would hope that 
today has facilitated that. That is what we have tried to do.
    I am going to bring this to a close and say this for the 
record. Under the rules of the committee, the record for 
today's hearing will remain open for 10 days to receive 
additional material and supplemental responses from witnesses 
to any question posed by a member of the panel. This hearing of 
the Subcommittee of Livestock, Dairy and Poultry Subcommittee 
is now adjourned. Thank you very much.
    [Whereupon, at 1:25 p.m., the Subcommittee was adjourned.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                 <all>

</pre></body></html>
